;; U.   S. DEPARTMENT OF HEALTH AND HUMAN SERVICES
1. "




          OFFICE OF INSPECTOR GENERAL





                    YOUTH USE OF SMOKELESS TOBACCO:
                     MORE THAN A P INCH OF TROUBLE

                      NAT IONAL PROGRAM INSPECT ION




                    OFFICE OF

            ANALYSIS AN D INSPECTIONS

                      YOUTH USE OF SMOKELESS TOBACCO:

                       MORE THAN A P INCH OF TROUBLE


                        NATIONAL PROGRAM INSPECTION




                               January 1986


                        Control Number P- 06-86- 0058





Lead Region:

  Region VI Dallas, Texas                 Office of Analysis and Inspections


Support Regi ons:                         Office of Inspector General

  Region IV , Atlanta, Georgia            Department of Health and Human

  Region VII, Kansas City, Missouri         Servi ces

  Region IX , Seattle, Washington

               _..

                , "





                                        MAJOR FINDINGS




o Youth start dipping and chewing at very young
                                                            ages.
                                                     The average age of
  first use is only 10 years, in fifth grade, and regular or daily use

  begins at only 12 years.

o This study and state use prevalence surveys confirm that use of smokeless

  tobacco by secondary and even p imary school students has increased at a
  rapid rate in recent years.
o Smokeless tobacco advertising
                              does encourage youth to try dipping and
  chewing according to a strong majority of study respondents.
o Many heal th
              provi ders and educators say youth are unaware of the heal th
  risks of dipping and chewing. Abou'" 0 of 10 junior high users and 4 of
  10 senior high users say there is either no risk or only a slight risk-
  from regular smokeless use.
o There is a considerable amount of 

                                                inaccurate information on the risks of
  smokeless tobacco among users. For example, 81 percent of users see
  smokeless use as much 
           safer than cigarettes, about 5 of 10 users believe
  gum and mouth pro blems among dippers are rare, and 25 percent think snuff
  does not contain nicotine. One- fourth of junior high users say regular
  use is    not                           third do
                          addictive and one-          not think it may lead to mouth
  cancer.
o Based on self-reports, many young dippers are experiencing serious health

  effects. About          4 of 10 users have had site        specific
                                                           leukoplakia, 37
  percent have experienced sores, blisters and ulcers on their gums, lips,
  and tongue and 20 percent have recedi ng          gums.

o Addiction is a        very serious      problem for many   users. Many (70%) say
  they	 ve tried to quit, often many              times, but most (78%)   fail due to
   addiction    craving " or " habit"
o The study concludes             that youth use of smokeless tobacco is a growing
  nat i ona 1 prob   1 em wi th   ser i ous current and future health consequences and
  recommends that the Surgeon          General:
  - Launch an educational public media campaign on the risks of           use.
  - Support school health educational efforts.


    Seek funding for basic research on smokeless tobacco use and           risks.
  - Provide strong national leadership on the smokeless tobacco            issue.
                     ....




                                       TABLE OF CONTENTS



                                                                  PAGE



SUMMARY OF FINDINGS AND RECOMMENDATIONS
                            iii
BACKGROUND

METHODOLOGY

FINDINGS

           Who   ' Are The Users?

           What Is The Duration ,      Frequency,

                          Of Use? 

             And Quant i ty
           What Is The Overall Trend        In Use?

           Why Do Youth Start Dipping And Chewing?

           Social Acceptability Of Smokeless Use

           Why Do Youth Cont i nue Us i ng Smoke less Tobacco?

           Schoo 1 Usage Of Smokeless Tobacco

           State Law Restrictions

           How Aware Are Youth Of Health Risks?

           Inaccurate Knowledge Of Risks

           Improved Health Educat i on Needed
           What Are The Health Effects On Users?

           Smokeless Use And Smoking

           What Are States Doi ng About Use?

RECOMMENDAT IONS



APP END ICES



Append i x A .... Study Respondents


Appendix B .... Organizations Opposing Use of

                  Smokeless Tobacco


Appendix C ....             Surveys of Prevalence of Use Data

Appendix                    Supplementary Tables and Graphs

                  Table I        Intensity of Use
                  Table II Reasons for Use Initiation
                  Table III Reasons for Use Continuation
                  Tab 1 e   IV
                            Strength of Habi t Among Users
                  Family Occupational Background

Appendix E .... Profi les of Current and Former Users

                     SUMMARY OF FINDINGS AND RECOMMENDATIONS



          They try it because their friends are using          it.
                                                             Then they
         learn to 1 i ke the fl avor and taste and pretty soon they
         hooked.                                           A smokeless user
o Users are predominately white males and
                                        include both athletes and ncr.­
 athletes, youth of urban and rural origins, and white and b ue collar
 f ami ly occupat i ona 1 backgrounds.

o Moist snuff is, by far , the smokeless product of choice among youth.
  Skoal and Copenhagen , products of U. S. Tobacco, the major advertiser
 dominate as the brands of initial and current use.
o Over 9 of 10 junior and senior high users report buying their own snuff

  and chewing tobacco without diffic          lty.
                                             State laws restricting sale to
  minors are not well- known , are very poorly enforced , and do not provide
  an effect i ve deterrent to use.
0 Youth start dipping and chewing at very young           ages.
                                                       The average age of
  first use is only 10 years, in fifth         grade.
                                             The average age when regular
  or daily use begins             is   only 12 years.   Many young users   will have
  regularly dipped at least 5- 8 years before leaving high school.
o Young users are consuming considerable amounts of snuff and are dipping
  at high levels of frequency and           intensity.
                                               Most (70 percent) dip every
  day, average 5 or more dips per day, and normally keep each dip in their
  mouth for 30 mi 1utes       or more.

o Youth use of smokeless tobacco in junior and senior high , and even
  elementary schools, has increased at a rapid rate in recent          years. This
  is  confirmed    both   the perceptions of study respondents and by a
                             by

  growing body of prevalence of use studies.


o Youth say they start dipping and chewing for 3 main             reasons:
                                                                    1) peer
  pressure or social acceptance by using friends, 2) curiosity or desire to
  experience the          taste
                         anc effects, and 3) use by fami ly memebers and
  relatives, such as fathers, brothers, cousins and uncles.
o Smokeless users are much more likely to have family members, relatives
  and close friends and associates who dip or chew th n non-users. Users
  receive much more approval , or at least acceptance, of their dipping and
  chewing habits from parents, siblings , friends and associates than would
  non-users were they to dip or chew.
o Smokeless tobacco advertising does encourage youth to try dipping and
  chewing according to a strong majority of users (62 percent), non-users
  (79 percent) and key informants (98 percent).
o Dipping and chewing         are enjoying fairly         broad and growing social
  acceptance among youth. Most or some students at their school approve of
  use accord i ng to 86 percent of users and 70 percent of non-users.
o About 7 of 10 users, non-users        and key informants say students generally
 regard dipping and chewing            as more acceptable, or         at
                                                                   least equally
  acceptable to smoking.
o Youth say they continue using smokeless tobacco for four main reasons:
  1) they enjoy the flavor and taste (64 percent), 2) they have become
  addicted or " hooked"        (37 percent), 3) they
                                                 1 i ke             the effects
                                                                   e. g.,
   relaxation , or " a buzz (22 percent) and 4) peer pressure from using
  friends and associates (15 percent).
o Officially, schools prohibit dipping and chewing in their
                                                          classrooms, yet
  30- 40 percent of users say they dip in class and often put in a pinch
 just before class     starts. Quite a few schools allow dipping and chewin9­
 on campus. About one- third           even had designated or well- known       dipping
  areas ,   such as the " Skoal Pole   " or " Scrounge   Lounge
o Youth are very to somewhat unaware of the health risks of dipping and
  chewing, according to        59
                            percent of health providers and educators.
  Eighty-six (86) percent          of these
                                     respondents say many youth regard
  smokeless use as " safe
o Whi le
         many smokeless users (89 percent) acknowledge dipping and chewing

  can be harmful to a person s health they are much less likely to believe
  the re-is much risk of physicial harm in         use.
                                                 For example, about 6 of 10
  junior high users and 4 of 10         senior high users say there is. either
  risk or only a slight risk from regular smokeless use.
o There is a considerable amount of inaccurate information on the risks of
  smokeless tobacco amrng users. In generQl, non-users are somewhat better
  informed than users and junior high users are the worse informed. For
  example, 81 percent         of   users see      Qke1ess use     as much    safer than
  cigarettes. About 5 of 10 users mistakenly believe         and mouth
  problems are very rare among dippers. Snuff does not contain nicotine
  accord i ng to the error. ous vi ews of 25 percent of users. Regu 1 ar
  smokeless use is     notaddictive according to one- fourth of          highjunior
  users and one- third of them disagree that it may lead to mouth cancer.
o Improved health  education on smokeless tobacco is               clearly
                                                               needed. A
  large majority of both users (70 percent) and non-users (65 percent) say
  their school has provided         no health     information on smokeless tobacco.
  One- th i rd of key informants     admi t no efforts have been made and many say
  the educat   i on that is   offered is often very cursory.




                                           i i

o About one- fourth of   keyinformants say school officials are very
  somewhat unaware of the    risks of
                                    smokeless tobacco. Twenty-seven (27)
  percent, including some principals, health teachers, nurses and coaches,
 say they have never     viewed or      heard anyeducational materials on
  smokeless.
o Many young dippers report they are experiencing serious health           effects.
       le   more pronounced among   olderyouth, health problem are also
                             high users. About 4 of 10 users have had
 Whi

  prevalent among junior
  leukoplakia at the site    where snuff is held in their mouths. Thirty-
  seven (37) percent have      experienced sores,        blisters, ulcers or other
  lesions on their gums,    lips, tongue and mouth. Twenty        (20) percent have
  reced i ng gum 1 i nes.
o Addiction is a very serious problem for many users, including 28 percent

  of junior high and 40 percent of senior high           users.
                                                             Many (70 percent
  say they ve tried to quit, often    man.y times, but  most (78 percent)     fail.
  The majority    (57  percent)  of those  unable  to  quit blame  " addiction
   craving " or " habit" as the main reasOn.
o The study concludes that youth use of smokeless tobacco is a growing
  national problem with serious current and future health consequences.
  avert a potential epidemic of oral cancer and other serious health
  problems among youth in future years strong state and Federal actions are
  needed now.

o The study recommends that the Surgeon       General:

  - Launch an educational public media campaign on the risks of           smokeless
       tobacco use.
  - Support school health educational efforts.


  - Seek funding for basic research on smokeless tobacco use and risks.
                                                                 


  - Provide strong national leadership on the smokeless tobacco issue.
                                                                





                                        iii
                                         , "





                        YOUTH USE OF SMOKELESS TOBACCO:
                          MORE THAN A P INCH OF TROUBLE


BACKGROUND

Smokeless Tobacco Use Defined

Smokeless tobacco 'includes two main types: chewing tobacco . and tobacco
snuff. Snuff " dippers " pl ace a small amount or a " pinch" of loose shredded
or finely ground tobacco or a tea bag like pouch of tobacco between their
cheek and gum. Tobacco " chewers " place a wad or " chaw " of loose leaf
tobacco or a " plug "of compressed tobacco in their cheek. Both chewers and
dippers suck on the tobacco and spit out the tobacco juices and s.aliva
generated.   Smokeless users savor the tobacco taste and flavorings and
achieve the tobacco effect through rapid absorption of nicotine through the
sensitive tissues 'lining the mouth. ' These practices of " going smokeless
have experienced         a   dramatic resurgence          in    popularity and social
acceptability in the last      decade.
Growi ng Pub l i c Concern Over R is i ng Use

Unfettered by a  Federal excise tax which was dropped in 1966 and
unrestricted by the electronic media advertising ban applied to smoked
tobacco, sales of smokeless tobacco have skyrocketed in recent years. The
most dramatic increase has been in sales of moist snuff. The U. S. Tobacco
Company, which controls about 90 percent of this market , saw its sales more
than quadruple from $94 million in 1973 to $444 million in 1984.

Although no national surveys of the incidence and prevalence of smokeless
tobacco usage have been conducted in recent years, est imates of the numbers
of users are substantial - ranging from an estimate of 11 million by the
National Cancer     Institute to a high of            22 million by the Centers for
Disease Control. Numerous experts, educators and health professionals say
many of these growing numbers of users 3re young males in their               teens.
fact , a growing number of state and local surveys are confirming the rapid
and extens i ve growth        in use of         smoke 1 ess   tobacco by ch i 1 dren and
adolescents, as well as yaung       adults.
Concerns over rising use of snuff by youth were dramatized by the death
from oral cancer in February 1984 of Sean Marsee, an Oklahoma track star
following six years of regular snuff             dipping.
                                                 Ensuing coverage of this
tragic event and the smokeless tobacco issue by national network television
programs, such as " Sixty Minutes   20- 20" , and " Hour Magazine , as well as
extensive print      media coverage        in    newspapers, Time Magazine, Readers
Digest ,   and scholarly journals have further stimulated public concern.

   growing and     extensive list of        health professional and       public   health
associations, public interest groups and government agencies have adopted
position statements or resolutions opposing the use of smokeless tobacco.
Included are such groups as the An:er' ican Dental Association , The American
Medical Association , The American Public Health Assocjation , the National

                                           - 1 ­

Cancer Institute, The  World Health Organization and the American
Association of Dental Schools. In general these   statements catalog
significant health risks associated with use, support health warning
labels, favor a ban                         or      restriction on television and other industry
                                                                public, and
advertising, promote health education to discourage use by the
support increased taxation of smokeless tobacco, as well as restrictions on
its sale to minors.  Appendix B lists some of the many organizations now on
record against the dangers of smokeless tobacco.

Significant health risks are associated with use of smokeless tobacco. A

growing body of scientific research links smokeless tobacco use with oral
cancer.  Smokeless tobaccos, particularly the popular moist snuffs, contain
                                                                                  potent
extremely       concentrations of nitrosamines, a very
                    high                                           group of
carcinogens known to cause cancer in over 40 different      animal  species.
Continued exposure to tobacco juices produces lesions in sensitive mouth
tissues.  The white; leathery patches, or leukoplakia, which develop at the
                                                                    Evidence      users.
site where tobacco is held are common among smokeless
suggests that the long- term risk of malignant transformation of
                                                                   smokeless
tobacco associated leukoplakia may be significant.

Periodontal diseases are also common among smokeless tobacco users,
                                             where tobacco is held.
particularly gums receding from teeth at the site
Discoloration of teeth and fillings, dental caries, tooth abrasion and bad
breath have also been associated with                            use.
                                             Another serious health risk
nicotine addiction
                       since regular snuff
                                           dippers  often achieve nicotine
                                                      smokers.
blood levels that equal or even exceed those of heavy 


Study Origin and Purpose


In January              of 1985
                  the Federal Trade Commission requested     Surgeon                    the
General to conduct a comprehensive review of      health effects of        the
smokeless tobacco to aid it in processing a Public Citizen Health Research
Group petitionfor health warnings on smokeless tobacco packaging and
advertising. In response, the Surgeon General established scientific
                                                               , and
review panels to advise him regarding the carcinogenic, oral or dental
addiction effects of smokeless tobacco use. Additionally, he
                                                                asked the
DHHS Inspector General' s office to conduct a qualitative field survey on
 smoke 1 ess tobacco use among youth.


The purpose of this study is to provide the Surgeon General with a broad-
based , geographically diverse survey of a sample of high school and junior
                                                              tobacco. The
high school current or former regular users of smokeless structured
study, which also includes non-users and key informants, is              to
learn more about               and     the types
                                    levels  of  smokeless tobacco  use, use
                                                                 of use and
 patterns and influences, youth awareness of the health risks
health effects   resulting from               study was      use. This
                                                             designed  as a      not
                                                                                 use data.
 statistically valid sample for developing prevalence of 




 METHODOLOGY

 The study included a total of 525 respondents, of which 290 or 55 percent
 were current (251) or former (39) regular smokeless tDbacco users; 109 or
 21 percent were non-users and 126 or 24 percent were key i nformaots.
                                                                       See
 Appendix A for additional details on study respondents.




                                                               - 2 ­

  Users were defi ned as youth havi ng dipped or chewed over 100    times, who
  presently or formerly either used dai ly or at least 3 days per week and who
  dipped or chewed at least 3 times on days of           use.
                                                        Non-users were defined
  as those who          had never dipped   or chewed or who had only tried it a few
  times or who had used less than 100          times.
                                              Key informants were individuals
  with knowledge of youth use of smokeless tobacco such as school principals,
                                                 hygienists, American Cancer
r teachers, nurses, and coaches, dentists, or
  Society representatives and state public and  dental health and. educatior.al
  off i cia 1   s   and researchers.
  Field work was conducted in 16 states: Massachusetts, Pennsylvania , West
  Virginia, North Carolina, Georgia, Alabama, Louisiana, Texas, Oklahoma,
  Indiana, Iowa, Colorado, Arizona, Idaho, Oregon , and Washington. :rhese
  states were chosen to provide representation of diverse geographical areas
  of the nation , because their reported high smokeless user populations , and
  because of their research, educational or regulatory activities.

  Within each          state   two schools were selected     after   consultation wit
  informed researchers, state public health and educational officials and
  school administrators. The study included 31 different schools, 11 junior
  high or middle schools and 20 senior high             schools.
                                                         At each school we
  interviewed an average of 8- 10 users, 2- 4 non-users and 3- 5 key informants.
  Users and non-users were identified for us by school officials, such as
  principals, school nurses, health teachers,        counselors and coaches, in
  accordance with the above definitions and attempting to draw a balanced
  sample from each appropriate grade level. Key informants were selected
  from with i n the schoo 1 sys tem , the commun ity-at - arge or from the state
  1 eve

  Structured questionnaires, focused on the study aims, were developed to
  guide discussions with respondents. The guides were reviewed extensively
  by PHS and HHS officials, and selected state and local officials and
  researchers. They were also pretested and revised again prior to field
  use.     Study staff
  interviewers and received two days of ; ten
                                              guides were all experienced
                                  administering the
                                                        ive training on the guides and
  smokeless tobacco issues             prior   to field work.private
                                                               All interviews were
                                                                     setting with a
  conducted on a voluntary, one- to-one basis, in a
  full pledge of confidenti llty to respondents.

  STUDY FIND INGS

  Who Are The Users?


  Smokeless users are predominately males according to users (96 percent)
  non-users (93 percent) and key informants (98 percent). About 6 of 10 of
  these respondents say users of smokeless include both athletes and non-
  athletes, although quite a few (28 percent) note a tendency toward higher
  use among athletes, particularly football and baseball players. About two-
  thirds of our respondents say smokeless users come from both urban and
  rura 1 areas. However , about 30 percent of them thi nk usage is greater
  among youth with rural backgrounjs, especially those with farming and
  ranch i ng        roots.
                    Our respondents do not normally ass6c i ate smoke less use


                                               - 3 ­

                 , "                                                  , "





with any particular racial group; however , when they do, they overwhelmingly say
Whites are much more likely to dip or chew than Blacks, Hispanics or others.
Users and key informants consistently state that certain youth groups, such
FFA , 4H , rodeo club , hunting and fishing clubs contain relatively more young
smoke 1 ess    users.
Asked which youth are least likely to dip or chew , users, non-users and key
informants frequent y mention girls, e.g., "     girls think it'
                                                            s gross    girls
say it's disgusting and nasty.     They also single out " honor students " or
 smart kids    preppies " and kids having strong parental guidance or strict
religious backgrounds. They     say Blacks, Hispanics and Asian Americans
rarely dip or chew , in contrast to Whites and Native Americans. However
there are exceptions to all these patterns. One key informant said    It'
hard to say who s least likely to dip or chew since most of the kids are
do i ng it."

For more insight into what smokeless users are like see the        profiles of-
current and former users in Appendix E.

What Smokeless Products Are Most Used And How Easily Are They Acquired?


By far, the most popular smokeless tobacco product used by youth is moist
snuff.   Nine of ten users say they most often dip snuff from tins (84
percent) or use snuff pouches (6 percent). On ly 10 percent of users chew
loose 1 eaf , twi s t , or plug chewi ng tobacco, and even some of these dip
snuff more      often.  None report sniffing dry, powdered snuff through their
noses.  Unfortunately, the more popular moist snuff is also the most potent
form of tobacco in terms of its high content of carcinogenic nitrosamines
and nicotine.
The dominance of the smokeless tobacco market by the U. S. Tobacco Company,

the major advertiser        is reflected in teen product preferences. The
overwhelming brand of first use among youth is Skoal , either in tins or in

the tobacco pouch " Skoal Bandit" form so prominently advertised under the

slogan implying health safety, " take a pouch instead of a puff"     Another
  S. Tobacco product, Copenhagen , its strongest , is the brand most youth
say they currently       use.
                          Copenhagen and Skoal account for the lion s share
of currently used snuff brands, wi th Hawken and Kodi ak also enjoyi ng some
popularity,  although far       less.
                                  Among tobacco cr\e jers, the Redman , Levi
Garrett, and Beechnut brands are the most popul ar.

Nine of ten users, among both junior and senior high students, say they
personally buy their smokeless tobacco. Ninety- five percent of senior high
users say it is never difficult or only slightly difficult for them to
purchase smokeless tobacco as a      minor.
                                         Comparable junior high figures are
only slightly lower , with 90 percent saying it is never difficult or only
slightly difficult to buy       as a minor.
                                         This clearly indicates that , even
where state laws restrict sales of tobacco to minors, they are very weakly
enforced.  Teens make 55 percent of their purchases from convenience stores
1 i ke " 11" and 31 percent from supermarkets or groc ry stores with the
remainder coming mai ly from gas stations, drug stores and tobacco shops.



                                        - 4 ­

   ...                                   ,...



  What Is The Duration, Frequency, Intensity, And Quantity Of Smokeless Use?


  Youth are starting use of smokeless tobacco at very young ages, becoming

  regul ar         users soon thereafter and
                                       consuming cons iderab le                                    amounts of

  smokeless tobacco at fairly high levels of frequency and
  Table I of Appendix 

                                                                                            intensity. See

  The overall average age when youth report first trying smokeless tobacco 

  only 10. 4 years, or in the fifth                      grade.
                                            The reported age of i                                  itiation is

  lowest in the South Central (8. 9 years) and the Southeastern U. S. (9.

  years) and averages 11 years in other areas.

  Smokeless user              reports indicate
                                       that regular or daily use follows soon

  after in it i at i on. The overa 11 average  age when regu 1 ar use begi ns

  reported to be only 12. 0 years old , or seventh                           grade.
                                                              In the South East

  and South Central regions it is only 10. 7 and 11.
  wh i 1 e other areas average 13 years. 

                                                                   respectively,
    2 years,
   It appears there may be a trend toward even younger           For examp le ,

  junior high users say they tried smokeless an average of 3 years earl ier

                                                                                        users.
  than  senior high                 students.
                                 Likewise, they begin using on a regular or

  daily basis 3  years earlier. As a result , the average total years of

  regular dipping for junior high users of 3. 8 years even exceeds the total
. years dipped by older students (3. 5 years). Based on these facts and the
  average ages of the users in our study, it is clear that many of these
  young users wi 11 have dipped regul arly at least 5 to 8 years by the time
  they leave high school!

  Most users (70 percent), including a majority of junior high users, said

  they dipped            or chewed 7             out of 7 days         in   the week       prior to being

  interviewed. Even   more (81 percent), said they usually dip or thew every

  day in another question series on strength of habit.


       . Initiation S Duration Of Use

                                                                            Days Dipped Or Chewed Last Week

      (Junior G SenIor HIgh Use Compared)



   V..r.                                                          Perc.nt Respondent.
                                                                      101
                                                   .J H111
                                                          H111
                                                   1'. 7 AVI A8                                              1?.J178'
                                                   !I H111                                                        SR H1gh

                              1'.                  18. 2 AVI A8                                                    121


                 st.




             :; B:
           10.
                       '\ I't8M
                        12.
                                      lppld
                                                                             1-3 DaJ.

                                                                               141
                                                                                            DaJa    7 DaJ.

                                                                                                      701
.'




        Sixty-one percent of users take 5 or less dips per day. About one of four
        (26 percent) take 6- 10 dips and 13 percent say they take as many as 10 to
        20 or more dips each              day.
                                       Senior high users tend to take more dips than
        junior high         users.
                                The majority of users (58 percent), both junior and
        senior   high, hold each dip in their mouths over 25 minutes, with most
        keep i ng it in over 30 mi nutes and often ' for up to 1 hour.




                      Dips Dr Chews Per Day                              Minutes Each Dip Held In Mouth'



     Percent RespDndent.
                                                                Uee...
                                                                                                        itO
        101                                                      tiO
                                                    .. H111
                                                     171'
                                                    !I H111      100
                                                    I2t41


                                                                               ""n: 24 M1n..
                                                                               Node 3D+ M1nt..




         !l0




                S-I        ..to   11-18    ..20+                         S-I ..SO it-il S..2D 2S-21 283D 3D
          Mn Iii                                                                  IUnute. 1n Mauth




        As indicated by the graphs on the following page, these rates and durations
        of dips result in rather high amounts of snuff consumption , as well as high
        rates of daily  exposure of                the
                                          sensitive tissues of the mouth to the
        harmful effects of tobacco juices. Two- thirds of our users consume 2 or
        more cans of snuff or pouches of tobacco each week , with 12 percent using
        as much as 6 to 10 or              more.
                                       Even those dippers who average only 5 or 8
        dips per day usually hold the tobacco in their mouths from 3- 4 hours each'
        day.  For the 13 percent of users who take 11 to 20 or more dips each day,
        tobacco exposure times may be as high as 6 to 9 hours each          Thirty                   day!
        (30) users  said they sometimes even sleep with a dip or chew in their
        mouth.



                                                            - 6 ­

,,      ..



                                                                                  Daily Tobacco Exposure Time

               Cans Or Pouches Used Last Week



                                                                        HDIr.
     Pec.nt AI.pDnOtnt.
        SOl                                               H1'"

                                                      .. H1'"
                                                        l2i41




             li1 13
                 II lN -  a T. I	
                                                                   DiP' Pe DI,

                                                                   I Of \I...
     Iii
                                                                                   MoOt


                                                                     . !XDII U.. 1.       ti av.....   II.. .f aU,
                                                                       .1p. IUlt1p11.. b, ..al length 1n .1nut.. If
                                                                       lid! d1p.



             Other Aspects of Usage


             The vast majority of users (81 percent) say dipping or chewing is something
             they do both alone and with their friends, rather than mostly with friends
             or mostly alone. The most mentioned sites where youth dip or chew are:

                                           Setting	                          Percent Respondents

                                    A t   Home	                                            87%
                                    Rel axing With Friends	                                85%
                                    Watching Sports                                        73%

                                    At Work                                                49%

                                    At Parties                                             48%
                                    Whi le   Studying                                      47%
                                    In The Classroom                                       30%

                few also said they dip or chew while hunting and fishing or , while
             driving around - sometimes in pick-up trucks equipped with spittoons - but
             only 4 percent dip while on dates.




                                                                 - 7 ­

The great majority of users dispose of the tobacco juices by              spitting.
When indoors, they often use styrofoam cups and soft drink cans as portable
spittoons. They also spit in rest rooms, water fountains, plants and some­
times on the floors, carpets and      halls.
                                         When outdoors, its easiest to just
spi t in the grass or shrubs, on the ground , s i dewa 1 ks or out the wi ndow of
an automobile .

Suprisingly, a significant number (37 percent) say they swallow he tobacco
juices when they are dipping indoors and have no place to spit , as in the
classroom. School nurses confirm that such swallowing occurs based on the
numbers of young males they see with upset stomachs, or " flu " symptoms.
The extensive amount      of   swallowing users report may pose a significant
future risk of stomach and throat      cancers, in addition to the risk of . oral
cancer.
What Is The Over   a 11 Trend In   Youth Use Of Smokeless Tobacco?

Use of smokeless tobacco by young people has increased at a rapid rate
recent years. This is confirmed both by            the
                                                     perceptions of our study
respondent s and by a growi ng body of prev a 1 ence of use surveys around the
nation.
Greatly increased use of smokeless tobacco by adolescents and children
being reported by numerous state and local surveys of school populations by
scientific researchers and public health officials. These surveys, many of
wh i ch are state-wi de inscope and number thousands of respondents, have
been conducted      in many different       geographical areas   of   the nation.
Commonly, they show about 8 percent to 15 percent of junior and high school
students use smokeless tobacco       regularly.Among males, where use tends to
predomi nate, the proport i on who dip or chew often ranges from 20 percent to
as high as 40 percent of all boys in some grade       levels.
                                                            See Appendix C for
additional highlights of these survey findings.

Several recent or on- going college surveys show about 11- 12           percent of
college students dipping snuff or chewing tobacco. One    such study reported
average use of 8 percent , rangi ng from a low of 8 percent (about 16 percent
for males) at northeastern region colleges to a high of 15 percent (about
30 percent for males) at south central colleges. Studies show even higher
smokeless tobacco usage among male college athletes.

Smokeless tobacco use is expanding not only on college campuses and
secondary schools, but al so among elementary school students. One state
found 14 percent of fifth graders and 7 percent of third graders using
smokeless tobacco. Two southeastern states reported over one- fourth of
fifth and sixth grade white males use some form of smokeless         tobacco.




                                         - 8 ­

   shown by the accompanyi ng graph

substantial majorities of smokeless

                                                Perceived 5-Year Trend In S okeless Tobacco Use

users, non-users and key informants

are reporting increased use of
smokeless tobacco             or
                         stable
use - often at rather high levels.               Plrc8nt RepDrting


Our key informants are particularly                                                           1J.
concerned about this rise, with 85
percent sayi ng use has ei ther                                                             B311.
great ly    ormoderately increased                         711
                                                                                            o It Jnflltl
during the past five         years.
                              Among
the reasons key informants and non­
users                     to
       frequent ly gi ve
this increasing use     are:exp 1 ai n


1)   Peer pressure and friends
influence, 2) the                  faddish
popularity ' of     the trend and its
associated " cowboy "
                   culture, 3) the
influence of the media, especially
television advertising and the
 macho      image it projects
endorsement by popular role models
1 i ke profess i ona 1 athletes and                                      dllI DI_ud
celebrities, 5) the widespread                             In_u.,I

                                                           RtpDrt8d Tr8nd In P8rc8ntlg8.

misconception that smokeless is
much safer than smoki    ng ci garettes,
and 6) the ease           of obtaining
smokeless tobacco and using it
without detection.
            Youth    Start    Dippi ng
Chewi ng?                                             Reasons For Initiating Smokeless Use


Users say           they first tried
smokeless tobacco
               for three main
reasons.    First,
            is and most
                                                PeClft AlapDn48t8 Cl   tlnl
influential             peer pressure.                                                          LI... r7
Their friends  use it and push it                                                            PQ" Hi'"
                                                                                             co II... rz41


they try    it.
and they want to be acc epted , so
              Many youth sai d they
started " because my friends were
                                                                                             0::.     11111



doing it and offered it" or because
 they see other people doing it"
The second most ment    i oned reason is
curiosity or desire to         experience
the effects and   taste. The third
reason is that other fami      ly members
or relatives' use smokeless. Other
less mentioned reasons include:
someth i ng to do or to avoi d boredom
(8 percent), enjoyed the fl avor         or
taste (6 percent), and  to avoid
smoking or to change from smoking
(4 percent).
                                                           Pr..18
                                                                       art D' it,   '.11,
                                                II   ",,1\8: 801                    tll


                                              -9­
As shown by Table II in Appendix D , non-users and key informants agree with
users on the important role that peer pressure and family or relative use
play in initiation. However , many more key informants (55 percent) blame
the influence       industry advertising for
                    of                                             getting kids
                                                             started on
smoke 1 ess.       more non-users and key informants cite the " macho or
               A 1 so,
grown-up   image of smokeless and                  its
                                      appeal as a " safer alternative to
smok i ng , than do users.

Reflecting the strong influence of peers and relatives, 58 percent of users
say they were     with
                     another youth or friend, usually their own age or a
little older , when they first tried smokeless and 38 percent say they were
with a family     member or            relative. Usually          this was their brother (28
percent), cous   i n (25 percent), father (23                percent), unc 1 e (15 percent), or
a grandparent (7     percent). The tobacco for their first dip or chew was
given them by these individuals most of the time (77 percent). However , 14
percent said they personally bought . their first dip or chew.

Smokeless users      are somewhat             more       ikely to    have fami     ly   members or
relatives who dip or chew than non-users.


                                                      USERS              NON- USERS
                                                         (290)               (l09)
                  ather Uses                               23%               16%

                 Brother Uses                              32%               15%

                 Other Re     1 at i   ves Use *           73%               57%

                 No Re 1   at i   ves Use                                    16%

   Uncles, cousins, grandparents.                  (Mothers and   sisters   of both     use on ly
       2 percent of time.




                                                   - 10 ­

                               , "          , ,"
"




t'

      Smokeless users are also much more likely than non-users to have daily
      close friends and associates who also dip or                          chew.
                                                                    For example, 78% of
      users say the i r best male fr i end uses, wh i 1 e th is is reported by on ly 32%
      of non-users.

                                                      USERS                    NON- USERS

                          Best Male Friend
               78%                       32%
                          Other Male Friends
             97%                       80%
                          - Many, Mos   t , All            ( 74%)                    ( 28%)

                         - A Few
                          ( 23%)                    ( 52%)

                    o -- Coaches                          59%                       38%
                          - Many, Mos t , All
              ( 28%)                   ( 13%)
                          - A Few
                         ( 31 %)                    ( 25 %)
                          Teammates                       98%                       43%
                          - Many, Mos   t , All            ( 57%)                     ( 23%)
                          - A Few
                         (41 %)                     ( 20%)

      Smokeless tobacco advertising does
      encourage young people to try
      dippi ng and chewi ng accordi ng            to a
      strong majority of users (62
              non-users (79 percent)
      percent) ,
     . and key informants (98              percent).            Smokeless TobaccD Ads EncDurage Teen Use

      About 8 of 10 users and               non-users
      say these ads exert a moderate to
      strong effect, whi le 96 percent of                   Perclnt AllpDnsl1

      key informants report a strong to                         1001          181                                 Uall
                                                                                                                  I2DJ
      moderate effect.
                                                                                                               PQ Nan
                                                                                                               DO Uall ItD91
             maj or ity   of users (77      percent)                    791                               78
                                                                                                                  Key It28J
                                                                                                                  Infarllt.
      say commercials using           professional
      ath 1 etes are des        i gned to appeal to
      teens (45 percent) and young adu

       (32 percent). Non-usars closely                               821

                                                                                             1181


       agree with this view.


      The users           in    our sample report
       viewing smokeless T. V.           commercials
       fairly frequently. They were able
       to accurately identify the type of                                                              281m
       peop 1 e        portrayed, such
       profess i onal ath 1 etes,
                                                                                                 171
                                             cowboys,
       outdoorsmen, musicians,              and race
       car dr i    vers .   They des cr i be them as
                                        II , " tough or
        popular or well known
                                                 casual                 u..
                                                                     EncaLl.g. IIlIk Mad.r.U Strang
                                                                                           E!f.ct
                                                                                             Eff.ct
       or
       macho II , " strong or manly                                           Ef Itct

                 laid back "         role models "                          Effectl Df Advlrt111..nt



            people I'd      like to be like
        people you look up to    Some also
       repeated the message ads give, such
       as  II anyone can use it "     it'
       better or safer than smoki ng " and
       II
            it rel axes you "

                                                           - 11 ­

, ,   ..




       Social Acceptability of Smokeless Tobacco Use


       Dipping and chewing are enjoying fairly broad and growing social approval

           and acceptance, part icul arly among                 students.


       About 7 of 10 users, non-users and key informants say students generally


       equally acceptable to smoking.
       regard dipping and chewing as more acceptable than smoking or at least



      . Eighty-six (86)    percent of users say most (38 percent) or some (48 percent)
           students at their school approve of smokeless use. Even among non-users 70
       percent say most (32 percent) or some (38 percent) students approve.
       However , about twi ce as many non-users (29 percent) as users (13 percent)
       say only a few               approve. Eighty- two              (82) percent of key informants report
       that dipping and chewing is. acceptable                             to students in their schools or
       communities.
       However , 95 percent of key informants personally o not " think it' s ok foF

       youth to use smokeless tobacco , prim arily because of associated health

       risks and            the
                       nasty, unsanitary nature of this            An even larger

       majority (99 percent) say parents and schools should do their best to

                                                                                       habit.
       discourage youth from starting or continuing use of smokeless. Yet, it 

       noteworthy that 20 key informants or 16 percent admit they personally dip

       or chew.   Unfortunately, most of these are coaches, who serve as important

       role models for many young men.




            DiupprDval Of Use By Significant               Others             DlsapprDval Of Use By S1gn1         f 1cant Others


      Plrc.nt Atlpondtntl                                                  Plrclnt Atlpondlntl

            1001                                             Ut.r.            1001
                                                                                                                            Uura
                                                              1201                                                          121
                                  Iii                        Non-.ra
                                                              11011
                                                                                                                            Non-l.ra
                                                                                                                            11091



                                                     721




                                           J71

                                                                                           301




                   Fath..    IIthar     Broth..   SI.t..                                Bllt       Bllt        Coachll
                                                                                      8or'rl.nd   11r1lrl11d



                                                                - 12 ­

                             , "        , "
                            , "




    It is significant that parents, siblings and friends of non-users are much
    more likely to disapprove of their use of smokeless tobacco than are the
    comparab le re 1 at i ves and friends of users. Many users report their fathers
    (68%), mothers (45%), brothers (91%), sisters (71%), best boy friends (98%)
    and coaches (51%) either approve or are neutral toward their dipping and
    chewing habits. Apparently, parental approval, or at least acceptance, of
    their sons
                I dipping or chewing is actually even higher , for 93 percent of
    users say their parents know they dip or chew and 87 percent ot                                      users      1 i

    their home      as a     setting where      they regularly                  use smokeless tobacco.
    Obviously, many parents are not enforcing                    their preferences.
                                                                 Quite a few
    key informants point out that parents would rather see their kids dip or
    chew than have them smoke.

    Why Do Youth Continue Using Smokeless Tobacco?


    Enjoyment of the fl avor and taste
    is the main reason users give for
    continuing their dipping       and
    chewing habits. However

    percent of users (28 percent of Jr.

    High and 40 percent of Sr. High)                         Reasons For Continuing Smokeless Use

"   say they have become addicted by
    their habit and can Itheyquit.
    Twenty- two percent say        keep               Percent Respondents
    using for the effects they achieve,                   1001                                                        Us.,.
    e.g., " relaxation
                                                                                                               Ii
                        buzz    peps                                                                                      \2OJ

            Peer pressure remains                                                                                     Non-...
                                                                                                                          Uo9!
    important infl uence on           cont i nued
    use, since      many of      their friends
    are us   i ng smoke   less around them and

    in Appendix
    offering it to them. See Table III
             reasons
    cont inuat ion
                    for other       and for
                                                                  141




    comparison of         junior and senior
    hi gh , responses.

    Permissibility         And        alit
    Smokeless Use


    Schoo l Usage


    Schools do      not officially permit
    dipping or chewing in the classroom                            Fhvor        Addiction    Pe..
                                                                                            Jluur    EfleeU
    accordi ng to a       majority of users,                        Tuts
                                                          .t H linn: 75                       tIS        tll
    non-users and key informants.                         .. H linn: 10S           40S                   241

    Schoo 1 offi cia 1 s real i ze that some

    kids dip in class anyway because
                  . The Effech Category      Include. " Help Aelu
      it'      very easy to             hide
                                                         Give. a Buzz         PeP. li


    especially when they           keep dips in
    for long periods and swallow the





                                                    - 13 ­

                                                          , "





juices. In fact ,  30 percent of users say they dip in class and 41 percent
say they often put in a pinch just before class starts.

Some schools allow dipping and chewing at other places on campus according
to users (42%), non-users (26%) and key informants (30%). Places where
dipping often occurs are parking lots, anywhere on outside grounds, and
field houses or athletic practice fields. Spitting areas, designated or at
least commonly known , were reported at 10 school campuses          visited.
                                                                      These
sometimes even have names like the li The Skoal Pole    Scrounge Lounge " or
 Cowboy Corner    Sometimes the . smoking area doubles as a dipping area or
the dipping area may be _ something like an old hollow tree stump where
di ppers congregate.
Dipping and chewing also goes on at           school functions like ball g.ames,
dances, and pep rall ies according to 38      percent of users, and 29 percent of
non-users. School        officials acknowledge it is much more difficult to
enforce non-use rules in these    settings.
School Pol icies and Enforcement Vary Widely

School policies regarding smokeless usage vary considerably. Some address
smoking but do not touch on dipping or chewing, some require permits to use
smokeless, others outlaw smokeless and other tobacco           use.
                                                              Some restrict
use but allow possession of smokeless on         campus. In
                                                         some schools where
even possession is prohibited the telltale white rings on jean pockets are
beginning to      fade
                    as boys conceal their snuff        tins
                                                       inside the front of
their jeans behind their belts, or keep them in their         lockers.
                                                                Schools try
to strongly enforce their rules, where they exist , but admit they don
have the time or desire to be " policemen . However , some schools employ
suspensions, remedial education and even transfer to alternate schools for
repeat offenders and appear to be havi ng some effect in imit i ng use.
About 25 percent of our respondents say school rules are only weakly
enforced. The attitude and leadership of school principals appears to be a
key variable in determining how actively schools attempt to control or
restr i ct use.
State Law Restrictions


In general , we found mass confusion and/or ignorance on the part of users,
non-users and even key informants regarding the legality in their states of
use ard purchase of smokeiess tobacco products by minors, the sale or gift
of such products to minors and any legal age limits on use, purchase or
sale.  Several of the states in our sample do have such laws. However , the
majority of respondents either are not aware of the              existence of their
state s laws or have an incorrect understanding of        them.
                                                            Many respondents
incorrectly think their state has legal restrictions on use, purchase and
sale when, in fact, it does not. Time and again when asked about such
legal provisions, key informants would say, " I should really know that, but
I don    . Two-     thirds(66 percent) of key informants said state laws
restricting sale or use of   smokeless tobacco are only weakly enforced; 30
                know.
percent di dn I t        These responses, together with the fact that 94
percent of users report it is never difficult or only rarely difficult for
them to purchase as a mi nor , make      it
                                          abundant ly clear that         state
                                                                        1 aws
restricting use of smokeless tobacco products are not being enforced and do
not provide an effective deterrent to use by minors.


                                     - 14 ­

,.




         How Aware Are Youth of the Health Risks of Smokeless Tobacco?


         Among key informants like school officials, health providers , and health
         educators, 59 percent say youth are very unaware or at least somewhat
         unaware of health risks of dipping and chewing. When asked if any youth
         regard smokeless use as " safe " 86 percent of these respondents said yes
         with a majority saying many or most young people share this attitude.
         explanation they c                 te
                                several factors: 1) even youth who know of r-sks
         often think li lt           can t happen to me ; 2) youth see smokeless as safer than
         cigarettes due to misleading advertising claims and the heavy anti-smoking
         emphasis; 3) absence of warning labels on smokeless products; and 4) the
         relative dearth, until quite recently, of smokeless risk information.

         Can Smokeless Use Be Harmful To Health?
                              Perceived Extent of Risk of Smokeless Use





        1001
     P8rclnt Reapond8nta
                           17 18                           .r   HiGh
                                                           11... 1711
                                                                            Perc.nt Respondlnt.

                                                                               1001	                                              .r    U'"
                                                                                                                                  11... 1781
                                                           !I HiGh                                                                !I High
                                                        QQ 11...   12141                                                       QQ 11...   12141
                                                           Nan                                                                    Nln
                                                           11... Ito.                                                             11... UOJ)

                                                        17 Key 1t28
                                                           17 Roy U2B)

                                                        tLll raraat.
                                                          tL In    -ont.




                                              31 21


                     I1tlll           Not ...tlll
                                      No AI8k or          II.Hrlt. T.
          u... 1111 W                       t1l                                         SUJht AI8k          ....t Alli
                                                                              II.. 1111 41                      841


     . Thl Nat Halrlll Clt.gary Includ.a Dan t Knaw                         1 Th. Na Alsk/Slight Alli Clt.gary Includ..
      l'up an... U- HI - 71.
      21 K.y Intarlantl -
                               Sr H1 - .u   NoII.r. ­                         Dan t Knaa AupanslI U- Hi  -.u
                                                                             Nan-era -.u KlY Int_ant. - UI
                                                                                                                Sr H1 - a. '




        Eighty (80) percent of junior high                                      User s percept ions of the extent of
        users and 92 percent of senior high                                     physical harm that might actually

        users acknowledge that dippi ng and                                     result from regular dipping and

        chewi ng can be harmfu 1 to a person I s                                chewi ng are much lower.                   About 6 of
        he a 1 th
              .   ManY-note the potent i a 1                                     10 junior high users and 4 of 10

        ri sks of oral cancer (79 percent)                                       senior high users say they see no

        and a few (5- 15 percent) mention                                        risk or only slight risk in regular

        problems like gum disease, tooth                                         use.  In contrast, about 7 of 10
        damage, mouth sores and stomach                                          non-users and 9 of 10 key informants

        problems. Yet 1 of 5 junior high                                         assess the risk of re ular dipping

        users and 8 percent of senior high                                       as moderate to great. It seems very

        users say smokeless use is not                                           likely there is some risk denial by

        harmful to health.                                                       smokeless users who are rationa­

                                                                                 lizing habits which they enjoy or

                                                                                 cannot break.

                                                                  - 15 ­

Inaccurate Knowledge of Health Risks


There is a           considerable amount               of inaccurate knowledge of the risks of
smokeless tobacco on the                part of dippers and chewers, , especially junior
high users.    In              general , non-users are better informed than users and
junior high users are worse informed than older users.

Fully 81 percent               of users see smokeless tobacco use as much safer than
cigarettes. This               widely held perception leads to a very dangerous b elief
that smokeless use is " OK"                     and a " safe alternative             , which it is not.

Six of ten junior high users and 4 of 10 senior high users mistakenly
be 1 i eve th at gum and mouth prob 1 ems are very rare among dippers and
chewers, when , in fact , they are fairly                              common. Snuff does                not     contain
nicotine according to the erroneous views of 38 percent of junior high
users and 20 percent of senior high users. One of four junior high users
and 15 percent of senior high users think regular smokeless use is not
addictive. One- third of junior high users incorrectly disagreed with tlfe
statement that regular use of smokeless tobacco may lead to mouth                                            cancer.



             Inaccurate Knowledge Of Risk.	                                       Inaccurate Knowledge Of Risks

            Of Us ing Smokeless Tobacco (ST)	                                    Of Using Smokeless Tobacco (ST)

Percent Inaccuratl Reaponae.	                                          Pecent Inlccurlte Reaponl.1
     90S	                                                                  50S
                                                      .. High                                                             .. High

            811 IU
                                                      U..rl  I7SJ                                                         Uaer. 1761
                                                         High                                                                    High
                                                      Ullrl 1214/                                                         Uaera 12141
                                                      Non	                                                                 Non
                                                      u'erl   1109/	                                                       Uaer. II 09)




                                                                                                                    101




 i-Sf u.. 11 IUch 80rl "'I than   CI'II.tt..	                                 4-!huff dOli not conhln nlcoUn.
 2-Ql8 8 80uth prob lIu ..on,  u.... Ir. 'I'" ,....
     .r. iner.... ,.11k I' tooth ltalna. WlIr. lOll
                                                                             IHQU11I ST UI' h' l..d to 80uth canc.r
                                                                             &-QU11I ST Ull 1. not IddlcUn
I The p.rc.nh,.. Include . don  t knn ' ,...ponl"                      I Th. p.,.clfh,1I lnclud. .
                                                                                                 don t kno.' ,..ponll.
I Th. naUonal ...n. lor ua.r categorl.. i. 2-                          I 11. naUonll u..r 8..na for CltI,orl.. 4,   II
  and 3     811  471. and US   r..p.cUnl,.                               and 8 II" 2!   121 and 111 ,.apecUnl,.




                                                        - 16 ­

. .




      Improved School Health Education on Smokeless Risks Is Needed



      A large majority of both users (70 percent) and non-user (65 percent) say
      their school has not provided any health information on smokeless tobacco.
      while more key informants believe schools are providing some educational
      coverage on smoke less tobacco, one- th i rd admi t no efforts have. been made.
      Often this lack of school effort                       is attributed to the fairly recent
      discovery of risks to youths, lack of good educational materials, failure
      to perceive dipping as a serious problem , competition of higher priority
      problems like drugs, alcohol and smoking, and lack of staff and         Many               time.
      school officials admit that health                   classes, the
                                                        normal means of conveying
      any smokeless health information , often only provide very cursory treatment
      of smokeless tobacco, perhaps in a tobacco unit heavily focused on smoking,
      or as one small item                       in a substance abuse unit dominated by drugs.
      Furthermore, since many schools permit senior high students to take only
      one required semester of health at any time during their four years, many-
      students may already have formed th ir dipping habits before receiving
      health risk information.

      About one- fourth of  key informants say school officials         very or             are
      somewhat unaware of the risks of smokeless tobacco. Twenty-seven (27)
      percent including some principals, health teachers, school nurses and
      coaches, say they have never viewed or heard      educational materials on
      smokeless tobacco. Many professing knowledge of smokeless risks derived
      from non-school sources, such as the " 60                     Minutes " and " 20- 20" T.   V. specials
      or an occassional newspaper or magazine                   article.
      Many schoo 1 respondents recogn i ze they need to do more to educate youth on
      smokeless risks and to discourage them from starting and continuing dipping

      and chewing habits. This should be done, they say, both in health classes

      and in spec i a 1 programs, wi th hea th teachers and coaches p 1 ayi ng a vi tal
      role.   They are quick to point out that                       arents should also be educated on

      health risks so they can work together with schools                              in discouraging
      smokeless use. Parents are                      seen as unaware        of smokeless risks by 55
      percent of key informants.


      Users say the best way to inform youth of smokeless risks is television
      -spec i a   documentar i es, pub 1 i c                         servi ce
                                                         annoJncements and
      counteradvert is i ng. The next most effect i ve way is through school
      education in the classroom and special assemblies. Users stress the
      importance of presenting the facts, employing examples of young users with
      health problems and use                       of   pictures and audio-visual materials to
      graphically show problems that can                   occur.
      Key informants and non-users agree on the                              importance of        us ing the
      electronic media, both TV and radio, and school educational efforts, with
      key informants stressing the need to start education early and reinforce it
      over time and to train teachers on health risks. Many key informants and
      non-users think product health warning labels are a good way to educate on
      risks.  One non-user said, " I know lots of kids whose o ly reason for using
      it is because it doesn t have a warning label.      Key informants also urge


                                                           - 17 ­

. .




           banning electronic media             smokeless commercials         and use   of professional
           athlete role models for counteradvertising. They also favor a broad public

           media campaign to educate parents, communities and the general population

           on smokeless risks.


           Fortunately, though most users say they are getting little information on
           smokeless risks at school, they are becoming somewhat aware of risks from
           other sources such as the above noted TV spec i a 1 s (54 percent), word -of­
           mouth from parents,             family and          friends   (42 percent)   and     reading
           newspaper or magazi ne           art i c les (31 percent).
                                                            Unfortunately however, 92
           percent of users say they gained this knowledge of health risks  after they
           had already begun dipping or                     chewing.
                                                     Asked if they would still have
           started had they known the risks beforehand , 37 percent said they probably
           would not and another 13 percent were not sure.



                                                                  Health Warning Labels


         Will Warning Labels Discourage Purchase?                 Our respondents are not very
                                                                  optimistic that p,lacing warning
                                                                  labels on containers of smokeless
      perc.nt VII lIapll11                                        tobacco wi 11 deter young dippers and
         701                                                      chewers from buyi ng it. Sixty- two
                                                                  (62) percent of users and 3 of 4
                                                   .. Hi'"
                                                   UII'" "II
                                                IX so HlIh        non-users say warning labels will
                                                    UI.". !2UI

                                                   Nan-u.         not make youth less likely
                                                    11091         purchase. However regarding the
                                                                  impact of warning labels on them
                                                                  personally, almost 2 of 3 non-users

                                                                   it if it had
                                                                  say they would be less likely to buy

                                                                             of
                                                                   Users, many
                                                                                a warning label.
                                                                                    whom already have
                                                                   strong smokeless habit are much
                                                                     ss apt to say warning labels will
                                                                   deter purchases. Several said
                                                                  warning labels would have    mattered
                                                                  more earl ier when beginning use of
                                                                   smokeless. Junior high users are
                                                                   somewhat more likely than 5erior
                                                                   high usefS t.o say warning labels
                   All Yautl   Yau PI.an.ll,
                      will impact on them personally.





                                                               - 18 ­

t:
     What Are the Health Effects on Users?


     Based on user self-reports, many young dippers are experiencing serious
     health effects. While more pronounced among older youth , perhaps due to
     their  higher volume and more intense            health problems are also             use,
     prevalent among juni or hi gh users . Although harmful effects run somewhat
     higher in the Southeast and South Central parts of the nation, those areas
     with earliest ages of initiation and highest total years of use, they are
     frequently reported by users from all geographic regions in our 
                                                         tudy.



                              User Hea 1 th        Effects                                                  User Hea 1 th   Ef fects


        Perclnt A8lpandlntl A8partlng                                                    Peclnt A8lpandent.   Rlpartlng
            &01                                                                              701                                             Pf"- Hlth
                                                                         .a Hlth
                                                                         II...   1781                                                          II...  1781

                                                                         .. Hlth
                                                            P'"   JIth
                                                                                                                                             CI II... 12141
                              1111                                   IU II...    12141
                                                                                                                                                Ka, 1128

                                                                         Ka, 1128
                                                                            al'u
                                                                         In f                                                                      1It8
                                                                                                                                                In f
                                                                                                   1111

                                         411
                                                         401




                                                                                                                                   311




                                                                                                    Taath        RecUin.     "'111n.
                    LUaphkh           II Sa,.         Addiction                                     Shin.                    Skin
       Uur "'81: 38                     371            371                                 ,,"':: !9             201         tll
                                                                                         III, Infarnntl I l'art1n. II prall.. II, ,..th
        . KI' Inra,.lnt' l plIclnhge I'r....tl pra­

                                                                                         Ullr. th, knaw. AIclding   Ii p.UDI ..        MIA
          1I1Ia up..ilncU II,   ,auth Ularl thl' lel..





     About 4 of 10 or a total of 113 users say they have had white, wrinkled
     patches, or leukoplakia, develop at the site where they hold the snuff in
     their mouths. Thirty-seven (37) percent of users have experienced sores,
     blisters, ulcers or other lesions on their gums, lips and mouth. Receding
     gum 1 i nes are reported by 20 percent of users and 18 percent have
     experienced skin sloughing off or peeling from their cheeks or gums.
     reduce these problems many youth frequently shift the tobacco from side to
     side in their mouth to allow sores or lesions to         One youth said he                           heal.
     lines his cheeks and gums with plastic to help protect sores and allow him
     to keep             dipping. Staining of                            teeth and              fillings is the most widely
     reported oral effect.
                                                                         - 19 ­

..         , "    --.                                            , "





     Addiction
     Addiction is a serious problem for many       users.      Thirty-seven (37) percent
     of users say the reason they continue using smokeless tobacco is because
     they are addicted or " hooked"        Said a typical user      Itl  s a habit.I got
     hooked on it , add i cted to it , 1 i ke smok i ng I guess. II As shown by strength
     of habit, Table IV in Appendix D , many users exhibit numerous indicators of
     addictive behavior. For example, 81 percent dip frequently e'1ry day, 68
     percent would make d special tri to the store if they ran out of snuff , 55
     percent would have strong cravings and 53 percent would find it li very hard"
     if they tried to quit. Some, 27 percent , say they cannot even go four
     hours without a dip or they will get nervous or       irritable.
     Many users want to quit and have tried to quit numerous times only to fail
     due to the strong hold their habit has on         them.
                                                       For example, 70 percent of
     users say they ve made a serious attempt to quit dipping or chewing. Many
     who attempt quitting do so out of fear of cancer or other health risks (34
     percent) or because of health problems they are experiencing (15 percent)
     For example a former user said li my gums were going down , my teeth were all
     stained , it was expensive and I heard it caused cancer.      Quite a few try
     to quit because of the urging of parents and fami ly (18 percent) or their
     girlfriends or other friends (11 percent). Those who ve tried to quit say
     it' s very hard to do and 78 percent say they failed despite an average of
       3 attempts. Even those who have stopped report making an average of two
     attempts before successfully quitting. Fifty-seven percent of those unable
                                        II
     to quit blame " addiction , craving, habit" as the main            reason.
                                                                          Said one
     user    I just had to have it.       Another said, " I was going crazy.
     couldn t concentrate. I was jittery.          I couldn    t sleep. I would quit if
     I could, if there was a way.        It is very sad to listen to these young
     people recite their health problems and fears and their inability to stop
     doi ng someth i ng they know is hurt i ng them. Many seem to yearn for some
     miracle cure or at least special services or help for those really wanting
     to quit.

     While the user health effects reported above might alarm many health and
     dental officials, many users tend to uiscount their                seriousness.
                                                                           They
     usually regard their mouth sores, gum , teeth and stomach problems as only
     slightly to moderately    harmful.Perhaps this is due to several factors:
     1) health problems often clear up after use is curtailed or stopped or may



     denial.
     be lessened by changing the place where the pinch is placed, 2) oral CJncer
     is a long- term risk which has not yet affected many youth , 3) dental exams
     are not reported    as detecting many      problems and 4) rationalization and

     It is noteworthy that 40 percent of youth say the dent i st was not aware of
     their dipping  habit. Among users whose dentist did know about their habit
     43 percent said neither the dentist nor hygienist advised them to quit.

     Smokeless Use and Smoking


     The current smoking behaviour of smokeless tobacco users and non-users            in
     our sample does not differ substantially. Only slightly more smokeless


                                             - 20 ­

,.



     users (60 percent) than non-users  (52 percent) say they ve tried smoking
     ci garettes.     arge majority of both users and non-users do not smoke,
     with somewhat  fewer non-smokers among smokeless users (79 percent) than
     non-users (86 percent). Three (3) percent of both users and non-users were
     former dai ly smokers who have quit. Eight (8) percent of users and 6
     percent of non-users are current dai ly smokers. About 6 percent of users
     and 5 percent of non-users say they smoke only occassionally (weekends,
     parties).
     Among smokeless users who                                are
                                           also dai ly smokers 45 percent said they
     started smoking after they had been using smokeless. However , the majority
     were smoking 
     before they began dipping or chewing and 56 percent of these
     regard         smokeless tobacco as a substitute for smoking. Again among
     smokeless users who also smoke occassionally,                                           less than       half    started
     smoking after using smokeless and of the majority who were smoking 
                                            before
     53 percent regard smokeless as a smoking substitute.


                                      Possibility of Future Cigarette Smoking


                                                                               USERS           NON- USERS

             Definitely/Probably Not                                             78%                 86%
             50- 50 Chance Wi                                                    12%
             Defi ni te ly/Probab ly Wi                  11


     Smokeless users                   report a somewhat                     higher    probability (21.7 percent) of
     smoking in the future than non-users (14. 4 percent). However , the majority
     (64 percent) of smokeless users saying they are possible future smokers,
     already smoke daily, or smoke                               occassionally.
                                                    Among smokeless users who do
     not smoke and have not smoked only 4 percent say they wi 11 definitely or
     probably smoke in the future and only 7 percent say there is a 50- 50 chance
     they wi 11 smoke in the future.
     A large majority of smokeless users in our sample, regard snuff dipping as
     much safer than smok i ng and they do not smoke ci garettes now nor do they
     intend to smoke in the                            future.
                                        Among smokeless users who do smoke the
     majority say they started smoking   before they began dipping or chewing.
     For them , smokeless tobacco is more of a substitute for smoking than a
     precursor of smoking. In summary, our findings provide only weak support
     for the hypothesis held by some public health officials that a nicotine
     addiction developed through dipping will be satisfied           later years                           in
     through smoking. Further research is needed                                       on this important        issue.
     What Are States Doing About the Smokeless Tobacco                                      Issue?
     Problem Identification


     As indicated by Appendix C, several state health departments have conducted
     surveys of the use of smokeless tobacco by youth in their            Notable                          states.
     among these are Massachusetts, Wisconsin , Iowa, Oklahoma, Utah , and Idaho.
     Significant studies showing prevalence of use have also been conducted by
     non-state entities in Texas (American Cancer Society), Indiana (Christen et


                                                                            - 21 ­

,.                                                                                , "




     al), Oregon (Oregon Research Institute), Colorado (Greer and Poulson) and
     Georgia (Offenbacher and Weathers).

     The Association of State and Territorial Dental Directors, particularly the

     state dental directors in Oklahoma, Utah, Idaho, and Massachusetts;
     together with the on- going efforts of the CDC Dental Disease Prevention
     Activity (DOPA), are helping to raise state and national awareness of the
     serious health threat posed by smokeless tobacco.

     Smokeless Tobacco Education Programs


     In a  recently completed anaylsis of                  data
                                                  offered by 50 state health
     departments by the Centers for Disease Control DDPA, 13 states reported
     they now       offer
                     smokeless tobacco educational programs and 7 additional
     states plan to do so in the future. * Thirty- three states say there ' is a
     need for such programs in their             state.
                                              The remainder are unsure of the
     need ,   but none see no need for such educational programs. Only              4 of the 13
     states have developed their own training materials , such as videotapes,
     slides , brochures and school health u it curricula. Eight states plan to
     develop materials and 7            states are
                                            using materials developed by other-
     states or   materials such          as the
                                         American Dental Association Smokeles
     Tobacco brochure or the widely used brochure and trigger fi 1m   Everything
     You Always Wanted to Know About Dipping and Chewing , produced by the Texas
     Di vis i on of   the Amer   i can Cancer Soc i ety.
     Idaho, Oklahoma and Utah have led in developing educational materials which
     may include brochures,  trigger films, slide- tape series for teachers and
     students, posters and pub 1 i c servi ce announcements. Other noteworthy
     smokeless educational materials include " Don t Take the Risk" , a slide tape
     series by the California    Dental Association      The
                                                        and li     Big Dipper
                                                     tute.
     vi deotape developed by the Oregon Research Inst i         Two states, Texas
     and Arizona, assign or make available oral health educators or dental
     hygienists to make school presentations that include smokeless tobacco.

     Regulatory or Legislative Action on Smokeless Tobacco


     Warn i ng   Labe l s

     The State of Massachusetts recently issued a                  public health regulation
     requiring the following heJlth warning label on all snuff sold in the State
     after December 1 , 1985. " WARNING: Use of snuff can be addictive and may
     cause mouth cancer and other mouth disorders.         According to an October
     1985 issue of 
  Smoking and Health Reporter , bills requiring health warning
     1 abe 1 s are now pend    i ng in
                                   New York, New Jersey, Delaware, Pennsyl van i a,
     Illinois, Michigan          Utah and Oregon. Additionally, California     and
     Minnesota expect        legislation to be filed this winter and Iowa is also
     considering such        action. Both the U.           S. Senate and   the   House recently
     passed bills that require health warnings on smokeless tobacco packages and
     in smokeless advertisements.



              Smokeless Tobacco Educat       ion Programs Offered          by State Health
          Departments            Cathy L. Backinger , R.  , M. H".           and Margaret
         Scarlett, D.   D. Paper presented at American Public Health Association
         Conf erence in November 1985.



                                                 - 22 ­

Excise Taxes


Currently 21 states levy excise taxes on smokeless tobacco products, either
snuff or chewi ng   tobacco. Eight of our samp 1 e states have such exc i se
taxes, including Alabama, Arizona, Idaho, Iowa, Oklahoma, Oregon, Texas and
Washington. Additionally, the Massachusetts legislature is expected to
soon propose a smokeless tobacco excise tax equivalent to cigarettes. All
50 states levy excise taxes on cigarettes. Federal le                islation to
reinstate the Federal excise tax on smokeless tobacco is also       pending.
Restrictions on Sale or Gift of Smokeless Tobacco Products to Minors


About 40 states   have laws restricting sale or gift           of
                                                              some forms of
smokeless tobacco, or all tobacco products, to minors - defined as those
below age 16, 17 or  18.  All our 16 sample states except Alabama, Georgia,
Colorado and Louisiana prohibit tobacco sales to minors. However , only 4
of these states, Idaho, Iowa , Oregon and Oklahoma also restrict the use and
possession of smokeless tobacco prodLlcts by minors. UnfortunatelY:most
state  laws restricting sale, purchase or possession of smokeless tobacco
products are not very we ll- known   and appear to be very weak ly enforced.

None of our sample states    restrict the
                                       advertising of smokeless tobacco
products. However , it is noteworthy that in May of 1984 the New York
Attorney General successfully convi nced the U. S. Tobacco Company to cease
use of misleading advertisements containing the slogan " Take A Pouch
Instead Of A Puff" in New York.


CONCLUS ION

In light of the foregoing evidence we can only conclude that youth use of
smokeless tobacco is a growing national problem , with serious current and
future health consequences. To avert a potential epidemic of oral cancer
and other serious health problems among. our youth in the years to come,
strong and decisive state and Federal action is needed now.

RECOMMENDAT IONS


    LAUNCH AN EDUCATIONAL PUBLIC MEDIA CAMPAIGN


    The Surgeon General should launch           a broad public media campaign to
    educate children    and youth, parents,         allied health professionals,
    teachers, coaches, school officials and media health specialists on the
    health risks of smokeless tobacco. This campaign might include
    television and radio public service announcements and documentaries;
    news releases, bulletins and brochures; newspaper and magazine
    articles; and counteradvertising, perhaps enlisting popular
    professional athletes or celebrities who will tell the " downside " of
    dipping and chewing.

    This campaign should be a coordinated effort involving the Office of

    Cancer Communication (OCC) of the National Cancer Institute, the Dental

    Disease Prevention Activity (DOPA) and the Center for Health Promotion

    and Education of the Centers for Disease Control, the Office of Smoking

    and Health and other appropriate Public Health Service organizations.




                                      - 23 ­

."   . \..




             SUPPORT SCHOOL HEALTH EDUCAT IONAL EFFORTS

             The Surgeon General     should direct a coordinated Public Health Service
             effort to develop and/or disseminate smokeless tobacco educational
             information and teaching aids for use in school health education
             classes and programs. This effort might include development of units
             or curricula for classroom use, updating existing curricula to include
             smokeless health risks, providing an informal clearinghouse for
             smokeless tobacco educational materials, in-service training programs
             or video tapes for teachers, coaches, and school nurses. States should
             be urged to start education on smokeless risks in primary schools with
             on- going reinforcement at the junior and senior high levels.
             This support    effort   should include     the CDC Center   for Prevention
             Services, DDPA , the Center for Health Promotion and Education , and the
             NCI Office of Cancer Communication. It should enlist the support of
             the State and Territorial Dental Directors, State and Territorial
             Directors for    Public Health Education , the National School Health-
             Coalition and    the                    Diffusion Network. Assistance
                                    National Education
             should also be sought from the American Dental Association the American
             Association of Public Health Dentistry and the Amrican Public Health
             Association and other appropriate professional groups.

             SEEK FUNDING FOR BASIC RESEARCH ON SMOKELESS TOBACCO USE AND RISKS



             The Surgeon General  should seek funding support for basic research on
             smokeless tobacco usage. First , steps should be taken to establish an
             on- going national survey and data base on the incidence and prevalence
             of smokeless tobacco use by youth and       adults.
                                                              This might be achieved
             through a    specialnational adolescent survey of tobacco use by the
             Office of Smoking and Health, by adding some smokeless tobacco
             questions to NIDA' s Annual Survey of High School Seniors or other on-

             go i ng PHS househo 1    or school- based health surveys. Second
             appropriate PHS units such as NCI,  IDA , NIDR should be encouraged to
             target a portion of their  research budgets  to fund gaps in knowledge
             identified by the scientific advisory panel on smokeless tobacco
             recently convened by the Surgeon General. Third, special attention
             should be directed to discovery of effective intervention or treatment

             methods to help youth who want to stop their smokeless tobacco habits.

             PROV IDE STRONG NAT IONAL LEADERSH IP



             The Surgeon General  should utilize the great influence of his position
             to provide strong  national  leadership on the smokeless tobacco issue.
             Possible action options:


             - Issue a comprehensive, special         report on the carcinogenic, oral
               health   , addiction and other harmful effects of   smokeless tobacco as
               soon as possible.



                                               - 24 ­

       Urge antismoking  organizations and coalitions to add
       smokeless tobacco to their agendas, opposing it with the
       same enthusiasm given to smoking.

       Alert the nation s dentists and physicians to screen for
       problems caused by smokeless use during periodic dental

       of health risks. exams and urge them to warn -
                   and inform
       and medi ca 1                                                  youth

       Request states to better enforce and strengthen their laws
       restricting use, purchase,           gift   or sale of smokeless
       products to mi nors .

       En 1 is t   the support of the F   edera 1 Department of Educat i on
       and state educational            officials to encourage rapid
       imp 1 ementat ion of smoke less tobacco educat ion programs and
       to urge     more schoo 1    to  adopt po 1 i c i es    of no
                                                               use or
       possession of any form of tobacco at         school.
       Serve as an advocate and intermediary to important groups

       who can help address the smoke less tobacco problem , such

       as  the American Dental Association, American Medical
       Association          other allied health
       associations; national associations
                                               professional
                                                    of   school principals,
       nurses, high schoo 1 ath 1 et i cs ; the Amer i can Cancer
       Society, Parent and Teacher Associations; and youth
       organizations such as the Future Farmers of America and

       4H.


GENERAL OBSERVATION


Our study noted a fundamental      difference in public policy regarding smoked
and smokeless       tobacco. Smoked tobaccos       ' are subject   to health warning
labels, advertising restrictions and a Federal excise tax , none of which.
apply to smokeless tobacco. It is important for the Surgeon General to
determine from available evidence whether                this   basic difference is
justified.
The Federal Cigarette Labeling and Advertising Act of 1965 mandated health
hazard warning labels on cigarette        packages. In
                                                 1971 and 1972 the Federal
Trade Commission began requiring warning messages                       in cigarette
advertisements as well. The Public Health Cigarette Smoking Act of 1969
prohibited any cigarette advertisements on television and radio after 1971.
The Comprehensive Smoking Education Act              beginning in October 1985
requires four strong warning        labels on both cigarette packages and in
advertisements.
Unlike the ban on cigarette
                         advertising, radio and television advertising
of smokeless tobacco has never been prohibited. Often professional
athletes and celebrities are used to promote smokeless products in ads that
are targeted toward young audiences and which suggest smokeless tobacco is
a clean , enjoyable, safe alternative to smoking.




                                        - 25 ­

I. .




       Many prominent professional and public health associations, as well
       public interest groups, have strongly endorsed Surgeon General health
       hazard warning labels on smokeless tobacco packages. They have also called
       for restrictions on advertisement of these products which range from a
       total advertising ban, to a ban on radio and television ads, to requiring
       that all broadcast or print media ads be accompanied by health warning
       messages. Among the organizations supporting such measures are: The
       Ameri can Dental Assoc i at ion, The American Med ica 1 Assoc i at ion, The
       Association of State and Territorial Dental Directors, The Association of
       State and Territorial Health Officials, The American Cancer Society, The
       American Heart Association , The American Lung Association , The National
       Cancer Advisory Board and numerous state medical , dental, and public health
       associations.
       A growing number   of states are curr ntly assessing whether to follow the
       state of Massachusetts example of requiring warning labels on smokeless
       products. Also, Federal legislation to require warning labels and
       advertising restrictions on smokeless tobacco was recently passed.
       December of 1985 the Senate passed the Comprehensive Smokeless Tobacco
       Education Act of 1985   (S. 1574). This   bill calls for the Secretary of HHS
       to establish a public information program on smokeless health risks,
       prescribes warning labels on smokeless tobacco packages and requires that
       print media advertisements include warning messages. Recently, the House
       passed an amended version of the Senate bill that would also ban television
       and radio advertisements of smokeless tobacco.       The Senate approved the
       amended bill, clearing it for Presidential consideration.

       A Federal excise tax on cigarettes has been levied for many   years. In 1982
       this tax was raised for the first time in 31 years to 16 cents per pack.
       Last year , to prevent reversion to the 1951     level of 8 cents per pack
       Congress temporarily extended the tax through March 15 , 1986. From 1950 to
       1965 the Federal government imposed an excise tax on smokeless tobacco.
       This tax was repealed beginning     in    1966 and has not been reenacted.
       Recently however    the Senate Finance Committee considered a smokeless
       tobacco excise tax. Several proposals have been offered to reinstitute a
       tax on smokeless tobacco at levels ranging from as low        as 2
                                                                      cents per
       container to a level as high as the cigarette tax. Many professional and
       public health experts  support reinstitution of a smokeless tobacco excise
       tax comparable to the cigarette tax. It is estimated that enactment of a
       smokeless tobacco tax equivalent to the cigarette excise tax would generate
       approximately $150 million in revenue.




                                          - 26 ­

             . . . ..




                           APPENDICES



Append i x A ..... Study Respondents


Appendix B ..... Organizations Opposing Use of

                 Smokeless Tobacco


Append i x              Surveys of Prev   a 1   ence of Use Data

Appendix D ..... Supplementary Tables and Graphs


             Table I         Intensity of Use
             Table II Reasons for Use Initiation
             Table III Reasons for Use Continuation
             Table      IV
                         Strength of Habit Among Users
             F ami ly Occupat i ona 1 Background


Appendix E ..... Profiles of Current and Former Users

, .




                                                                                      APPENDIX A

                                                                                            PAGE 1


                                       TOTAL RESPONDENTS




                                                                         KEY
                                       USERS 1./   NON - USERS   1/   INFORMANTS 1/        TOTAL


       Mass., Penn., W. Va.

       Ga., N. C., Ala.	                                                                   112
       Tx., Okla., La.	                                                                    125

        Ind., Iowa, Colo.


        I d., Ore.,     Wa., Az.	                                                          110
             TOTALS	                   290            109                126               525

             PERCENT	                   55%            21%                   24%


                                       JUNIOR HIGHS (11)              SEN lOR HIGHS   (20)
                                       Number    Percent              Number       Percent
       USERS                                         26%               214           74%
       NON- USERS                                    30%                             70%




      1/ Has dipped or chewed over 100 times, presently uses daily or at
              least 3 days per week, dipping at least three times on days of
              use.

             Has never dipped or chewed , or has only tried it a few times or

             more than a few times but less than 100 times.


      1/ 	
             School officials (principals, teachers, coaches, nurses), health
             providers (dentists and physicians), state health and education
             officials, researchers and public interest groups - American
             Cancer Society.
                                                                 APPENDIX A

                                                                    PAGE 2


                              KEY INFORMANTS




                                                NUMBER   PERCENT

SCHOOL OFF IC IALS                                         65%

   Principals                  (20)
   Teachers                    (26)
   Coaches                     (22)
   Schoo 1 Nurses              ( 7)
   Counselors and     Other

HEALTH PROVIDERS

   Dentists and Physicians


AMER I CAN CANCER SOC I ETY



STATE HEALTH DEPT. OFFICIALS                              11%


STATE EDUCATION AND OTHER
   STATE LEVEL RESPONDENTS


RESEARCHERS

   Dental   Schoo 1   and Other


                              TOT AL            126      100%
                                                                    APPENDIX A

                                                                           PAGE 3


                       USER AND NON- USER DEMOGRAPH ICS



                                        USERS               NON- USERS
                                Number      Percent     Number   Percent
o SEX:



   Ma 1 es                      286         98.                  74%

   F ema 1 es                                   1.4%             26%

o AG E:



   Mean Age                            15. 5 years          15. 1 years

   Age Range                          11- 19 years         11- 19 years

o ETHNICITY:


   Whi tes                      263         90. 7%               75%
   Blacks                                       1. 7%            14%
   Hispanics                                    1.0%
   Native Americans

o GRADE

           LEVEL:

                                                1. 7%
                                                                 11.
                                            10.
                                            13.                  15.
                                            19.                  20.
                                            22.                  15. 6%
                                            26. 2%               27.
o SIZE CITY WHERE RAISED:


   Country/Rura 1  Area                     27.                  26. 6%
   Small City (50 000()                     28. 3%               41. 3%
   Medi um Ci ty (51 - 250K)                26. 8%               14.
   Large City (251K - 1M)                   13.                  14.
   Mixed/Can t Say
                                                                    APPENDIX B



              ORGAN IZAT IONS OPPOS ING USE OF SMOKELESS TOBACCO




A growing and  extensive list of health professional organizatiGns, public
health associations,  public interest groups and government agencies Ii \'e
adopted position statements Qr resolutions on the use of smokeless tobacco.
In general , these statements catalog significant health risks associated
with use,  support health warning labels, favor a ban or restriction
television  and other industry advertising, promote        health
                                                               education to
discourage use by the public, and support increased taxation of smokeJess
tobacco, as well as restrictions on its sale to        minors.The following
include some of     the
                      organizations that have gone on record against the
dangers of smokeless tobacco:

       American Dental Association *


       Amer i can Med   i ca 1   Assoc i at i on

       Association of State and Territorial Dental Directors *


      Association of State and Territorial Health Officials *


      American Association of Oral and Maxillofacial Surgeons *


      American Association of Dental Schools


      American Public Health Association


      Coalition of Smoking or Health which includes


           Amer i can Cancer Soc i         ety *
           American Heart Association*

           American Lung Association*


       World Health Organiz3tion , International Agency

          for Research on Cancer *


      National Cancer Institute and National Cancer Advisory Board*


      Centers for Di sease Control
          as Dental Association

      Oklahoma Dental , Medical and Public Health Associations *
   Organizations stating smokeless tobacco use can cause oral cancer.
                                                                                                    APPENDIX C



                           REPORTED SURVEYS Of ADOLESCENT AND ADULT

                        USERS Of SMOKELESS TOBACCO IN THE UNITED STATES


                              JUNIOR- SENIOR HIGH SCHOOL STUDENTS
                                               1983- 1985

 INVEST IGA TORS/LOCA T ION           SAIfLE                AGE/GRADES             USAGE

 1. Schaefer, Hender    on,           5392                  11- 18 yrs     19% Male

    Glover, Christen                  H-2534 (47",)                         0- female

    Texas (1985)                      f - 2858

                                                                           55% T started        at

                                                                             12 years or        less

                                                                           88% T started        at

                                                                             15 years or        less


 2. Offenbacher & Weathers	           565
                  11- 17 yrs     20% Hale

    Georgia (1983)                    Hale 100%                            13. 3'" regular usage
                                                                           31% trial

                                                                           50% 2 years+ usage

                                                                           20% 4 years+ usage

                                                                           50%+ started at

                                                                             age 12


 3. Christen , Palenik , Niemann      2226                  12- 18 yrs     9", T
    et . a1 .                                               grades 6-      Grades 6- 8     R 0.    42%
    Indiana (1984)                                                           Avg 15%
                                                                           Grades 9- 12       R 13- 47%
                                                                             Avg 30%

 4. McCarty & Krakow	                 5013                  14- 18 yrs     15% T

    Massachusetts (1984)              H-2406 (48",)         grades 9-       28. 2% Hale

                                      f - 2607                                  8% female
                                   67 schools
                                   1 class per
                                        grade
 5. Glover, Edwards	
                   l Tedford          2098                  grades 3,      15", T

    Oklahoma (1984)                   H-11l2 (53%)          7, 9, 11       grades 3,     12'"

                                     f - 986                               grades 9 11- 20%

                                                                           78% started at

                                                                             12 years or younge


 6. Edwards	                          3232                  10- 18 yrs     Ever used

    Utah (1984)                       H-168l      (52tJ                      HaIe- 39. 41'

                                     f - 1551                                female-
                                                                           Cont . use
                                                                             Hale- 14.
                                                                             Female­
 7. Greer and Poulson	                1119                  14- 18   yrs   11% T

    Colorado (1983)

 8. Jones	                                                  12- 18 yrs     Daily use

    Wisconsin (1985)                                        grades 7-        Hales­

                                                                             female ­

                                                                           Weekly use

                                                                             Hales- 15'"
                                                                             female- I'"
                                                                           Ever
                                                                             Males- 45'"
                                                                              female- 11%
T - Percent of total sample population.
NA - Not available
 M-
fR -- female
     Male population

      Range
             population
                                   LONGITUDINAL STUDIES 1976- 1984



INVEST IGATORS/LOCAT ION                 SAI4LE        AGE/GRADES              USAGE

1. I daho   Schoo 1 Tobacco
   Educat   ion Program
   Dept. of Heal th & Wel      fare,
   Idaho (1982- l98J)                    8300          Elementary     14% Elementary

                                       81 schools
         and          males
                                                       Secondary        (2% daily use)

                                                       Grades         25", Secondary
                                                                        males
                                                                        (ll% daily use)


             (1983- 1984)                2639          Grades 7­      8% T

                                       27 districts
                  6% 7th Graders

                                                                      15. 5% 10th Graders
                                                                      39% started before
                                                                        10 years
                                                                      84% started before
                                                                        12 years

                                                                      16% used & quit


2. Bogalusa Heart Study,
   Louisiana State University
   Medical Center,
   Louisiana (1976- 1977)                30l4          Grades 3­      Chew - Hale 13%

                                         H-1556                              female 1%

                                         f - 1458                     20% l4yr. olds chew

                                                                      15% l5yr. olds chew


                (1981- 1982)             2I52           Grades 3­     26%   Male usage D/C

                                         H-1068                       21%   Male age 8- 9 D/C

                                         f - 1084                     40%   Male age 12- 15 D/

                                                                      43%   l4yr. olds chew

                                                                      43%   l5yr. olds chew


3. Oregon Research

   Institute Studies

   Oregon       (1983)                   1639           12- 16 yrs.   Male daily usage

                                         H-822          Grades 7­           range 8.     23.
                                         f - 817                      female daily usage

                                                                        range 0.        1.1%
                                                                      Trial by males range

                                                                        65.       76.
                                                                      Trial by females

                                                                        20",

                (1984)                   3165           Grades 7.     55% Male trial by

                                         H-1568                           age 12 years

                                         r - 1597                     60% Male usage

                                       4 school
                      68% male trial

                                         distr icts                   14% male daily use

                                                                      19", female trial
                                                                            7% female daily

                                                                            use
T-    Percent of total sample population
D/C - Combined dipping and chewing
                             COLLEGE STUDENTS ATHLETES 1984- 1985




 INVEST IGATORS/LOCAT ION             SA/oLE             AGE/GRADES            USAGE

 1. Anderson & McKeag               College Studen       18+ years    20% T in last 12
    Hichi an State University        - Athletes                         months
    (1985                             2039                            17% regular
                                      H-1407 (69%)                    16% started at or
                                      f - 632                             below Jr High
                                    11 Colleges!                          stsrted
                                    Universities                          high achool
 2. Noland, Bliss, Geary            College Studen       18+ years    28% dip
    University of Kentucky           - Athletes          (avg. 19.        chew
    (1985)                            143                   Years)    22% started      at
                                      Hale 100%                           15 yrs.      or   younger
                                    1 University                      11% started      at
                                                                          12 yrs.      or   younger
 3. Glover, Johnson, Edwards,         5258                            12% T, 22 msles
    et.                               H-2608                          NE Colleges - 16'" M
    East Carolina University          f - 2650                        SC Colleges - 30% M
    (1984)                          8 States
                                    (regional)

T - Percent of total sample population.





                                                - 3 ­

                                    SURVEY REFERENCES




       Offenbacher S,      Weathers DR.   Effects of        smokeless tobacco on the
       periodontal ,   mucosal and caries status of adolescent males. J Oral
       Path 1985:14:169.

       Greer RO, Poulson TC. Oral tissue alterations associated with the use
       of  smokeless tobacco.
       1983: 56: 275.
                                  Part I Clinical Findings. Oral Surg

3 )	   Noland M , Bliss R , Geary D. College athletes ' knowledge and       practices
       regarding smokeless tobacco. HPR Dept University of                  Kentucky.
       Unpublished (1985).
       Hunter SM , Parker     FC,
                                Burke GL , Webber LS, Croft JB , Berenson GS.
       Longitudinal patterns of cigarette smoking and smokeless tobacco use in
       adolescents: Bogalusa Heart Study. National Research and Demonstration
       Center- Arteriosclerosis, Louisiana         State   University Medical Center.
       Unpub 1 i shed (1985).

5 )	   Hunter SM , Webber LS , Berenson GS. Cigarette smoking and tobacco usage
       behavior in children and adolescents: Bogalusa Heart Study. Preventive
       Medicine 1980:9:701.
6 )	   McCarty D , Krakow    M. More than ' just a pinch' : the use of smokeless
       tobacco among   Massachusetts hi gh school students. Dept. of Public
       Health , Massachusetts (1984).
       Anderson WA ,   McKeag DB. The   substance use and abuse habits of college
       student athletes. Michigan State University          (1985).
       Hosokawa MC, Roberts CR
       Missouri: Phase
                                      Hansen   PL.   Health education in
                           II. Health Education , March/April 1984 18.
                                                                                rural

9 )	   Glover ED , Edwards SW ) Christen     AG, Finnicum P. Smokeless tobacco
       research: An interdisciplinary approach. Health Values. May/.une
       1984: 8: 21.
10) Lichtenstein E, Severson HH , Friedman LS, Ary DV. Chewing tobacco use
    by adolescents: Prevalence and relation to cigarette smoking. Oregon
    Research Institute (in press), 1984.

11) Schaefer SD , Henderson AH , Glover ED , Christen AG. Patterns of use and
    i nc i dence      of
                   smoke 1 es s tobacco consumpt ion          in
                                                         schoo l-age ch i 1 dren.
    Texas Division , American Cancer        Society.
                                                  Presentation to Fifth Joint
    Mtng of Amer Soc for Head & Neck Surgery and the Society of Hd & Nk
       Surgeons, 5/8/85.




                                          - 4 ­

                            PAGE 2 - SURVEY REFERENCES




12) Jones RB. Smokeless      tobacco: A challenge for the 80'            Division of
    Health ,   Wisconsin.

13) Glover ED , Edwards SW , Tedford    H.
                                        Prevalence of smokeless tobacco
    Oklahoma public schools. (In preparation), 1984.

14) Edwards G. Chalking up the chewers: Utah school- based smokeless tobacco
    survey.  Dept. of Health , Utah, 1984.

15) Smokeless Tobacco Publ ic      Health Program.    Idaho Dept of Health &
    Welfare, Idaho Cancer Coordinating Committee.         Report 4/85.




                                       - 5 ­

                                                                                                                    APPENDIX D
                                                                                                                    T ABLE I



                                                               INTENSITY Of USE


                                                                                                            Wash
                                           Massachuset ts         North Carolina   Texas       Indiana      Idaho
                                           Pennsylvania           Georgia          Oklahoma    Iowa         Oregon
                                               West Vir inia     Alabama           Louisiana   Colorado     Arizona      National
               Per Week

        Mean
        Mode

Number Di      Per Da

        Mean
        Mode

Minutes Held In Mouth

        Mean
        Mode                                                          30+              30+            30+     30+          30+

   osure Time On Da s Di             (Hours)
        Mean
        Mode

Numbp    Cans/Pouches     Per Week

        Mean
        Mode

    When first    Tried     Years)
        Mean                                     11.                                              11.        10.          10.
        Mode
                                                                                                                          11­

    When Re    ular   Use Started (Years)

        Mean                                      12.                10.              11.2        13.        12.          12.
        Mode

TOTAL YEARS DIPPED

        Mean
        Mode
..



                                                                             APPENDIX D

                                                                             TABLE I I


                                  REASONS . FOR USE IN IT IAT ION




                                              USERS         NON- USERS   KEY INFORMANTS

     Peer Pressure, Friends
                   50%              62%            59%

     Curiosity, To Try It                      32%              22%

     Family Members/Relatives Use              18%              15%            36%

     It'   s Something To Do

     Like Flavor or Taste                                                      21%


     Safer Than Smoking                                                        26%


     Be Macho or Grown-up                                       27%            32%


     Advert i sing I nf 1 uence                                                55%

                          , " , "





                                                                                APPENDIX D
                                                                                TABLE II I


                                 REASONS FOR CONT INUAT ION OF USE



                                               JUN lOR HIGH   SENfOR HIGH
                                                  USERS        NON- USERS   ALL OSERS        NON- USERS


 Enjoy Flavor or Taste                             75%            60%          64%              31%.
 Addiction ,    Habit         Hooked"              28%            40%          37%              51%

 F or    Effects:     Relax      Buzz              16%            24%          22%              14%

 Peer Pressure, Friends                            16%            15%          15%             20%
 Something To       Do,   Avoids Boredom                          12%          10%              N/R

. Better Alternative Than            Smoking                                                    N/R

   Macho or Grown-up " Image                                      N/R
, .




                                                                          APPENDIX D

                                                                          TABLE IV


                                STRENGTH OF HAB IT AMONG USERS




                                                            JR. HIGH
   SR . HIGH    TOT AL



      Usually Dip or Chew Every Day                              74%       84%          81%

      Would Make a Special Trip To Store If Ran Out              59%       71%          68%

      Wou ld Have   Strong Cravi ngs   If Tried To Quit          49%       57%          55%

      Would Be Very Hard For Me To Quit                          61%       51%          53%

      Often Take A Dip Or Chew Just Before Class                 26%       46%          41%

      Hard Not To Use Where Use Is       Forbidden               42%       32%          34%

      Want A Dip Or Chew First Thing In Morning                  20%       31%          28%

      Get Nervous If Go Four Hours Without It                    36%       23%          27%

      Sometimes Sleep With A Dip Or Chew                         13%                    10%
                     "' ,.
                     ::.
                     :::. "      ".
                          ,--:::::.
                              '',:,::::
                                   .  " ," .:::.
                                      ,::.
                     :::::.::::::.::::::.:::,,::::
                     ::::::::::::::::::::::::::
                      :::::::,
                       :::::.':::. ::..'
                                       :::::.
                                        :::.::::::.
                                            "                 ' . ' ,

                                                                  ', '.,,::::
                                                             ::::::::::    ,, -
                                                               ::::::.:::::.
                                                               ~~~        '"  ,::::::.
                                                                              ~~~
                                                                              ',:::::::
                                                                                ,:::::
                                                                                   "
                                                                                   ,                       ::.
                                                                                                    ::::::::::
                                                                                                 :::::::
                                                                                                    :::.       ..:::..
                                                                                                            :::::   ,.
                                                                                                                ~::::::
                                                                                                                   ~~
                                                                                                                   :::::                    ,,'..::::~~~
                                                                                                                                                   , .,.
                                                                                                                                  ::::::::::::::::::::::
                                                                                                                                   ::::::::::::::::::::::::::
                                                                                                                                     "': .:.:::~~~."
                                                                                                                                                   "




                                                                                                                                                                APPENDIX D





            FaMi 1 y Dc c upa t ion a 1 Bac kg o un d
           ( Use                                      COMpared Wi                                th             Non-Users)

Per-cen    Responden t:s
  100:.
                                                                                                                                                                Duser-s
                                                                                                                                                                t:
                                                                                                                                                                P7 No n

                                                                                                                                                                     LI s e r-s




                                                                                          70:.

                                                                                                 59:.
                                                      56:.                                        0 ,0 ,

                                                             S1:.                                                                 49:.
                                                             0 ,0 ,
                                                                                                                           44:.
                     41:.
                     0 ,0 ,0 "

          30:.

                                                              0,
                                                                             0,

    10                        0 ,0 "
                              0 ,0 "



          Fa t:her-                                   Ho t: he r.                         Fa t:her-                        Ho t: 'lie r-

           ...n' d    t:                       Co I I ar-                                  Blue Co I I ar­
          APPEND IX E




PROF ILES OF CURRENT AND FORMER

    SMOKELESS TOBACCO USERS

.,




       The tall, slender fifteen- year-old (we will call him Don) was clearly eager
       to talk about his experiences with smokeless tobacco. Most of his life was
       spent in   rural Virginia, but he now        lives
                                                      in another         state.
                                                                           When Don
       recently moved from the . country to a city of 123 000 he brought along his
       spittoon with     a deodorizer    and what he calls "          nasty habit.   II The
       10th- grader   has regularly dipped snuff - current y Skoal - since he was six
       years old. Don uses about three cans of snuff each week.

       He recalls that his first dip was given to him by a 10- year-old cousin , one
       of many relatives and friends who used smokeless tobacco then or later. He
       started dipping li to follow the crowd , to be a tough , macho guy.    Among
       students, it' s like a chain     reaction. It "
                                                     starts as a joke but a person
       likes it and keeps doing it.


       Notably, Don    views the " athletes ,   cowboys   II and other guys II shooting the
       rapids "  in television commercials for smokeless as II happy, self-confident"
       and II dependent on tobacco. II  He th i n s such advert i sement
                                                                         s are aimed at­
       youn g adu lts and teenagers, and that they strongly infl uence young peop 1 e
       to try smokeless tobacco.

       Don admits having physical effects of       dipping:
                                                         sore gums and " teeth being
     . pushed back by the constant pressure of tobacco " (the atter was detected
       by a dentist). Additionally , it " ruins the way you feel, think and act."
       It " affects all body functions and it' s not good for your stomach.     This
       ins i ghtfu 1 young man knows, too ate, the truth about , and consequence of
       using smokeless tobacco.


       Unfortunately, the gripping thing about Don s sad experience with snuff
       that he is profoundly addicted to it and genuinely wants to quit dipping.
       He has tried to quit , he says, some 18 times, but the longest he has gone
       without snuff is two days. The " combination of irritability and being
                                                        II I
                                                 youngster.         get real
                                                                      nervous and
       tempermenta 1" is too much for the
       gripey and tense without it. My lip hurts if I don t have
       shakes.
                                                                            it.
                                                                        I get the


       Though he does not specifically mention the risk of oral cancer , surely he
       knows that it' s the ultimate risk. Like so many others he too saw 11
       Minutes ll on television. He thinks that the risks related to smokeless use
       should be publicized more by newspapers, magazines, television , radio - all
       public relations situations. 1I Meanwhile, the young man continues taking a
       dozen dips per   day.
, .





       Jim is 16 years old and in the 12th grade. He dips every day, about 6 times per
       day, and uses over 4 cans of snuff per week. He leaves the tobacco in his mouth
       longer than 15 minutes per dip.
       Jim first tried dipping when he was 11 years old. His friend/cousin was a
       dipper , so Jim asked him for his first dip. Jim- has been a dipper since then.
       Jim s uncles and and his grandpa also dip, as well as most of hts friends and a
       few of hi s   coaches.

       After 5 years of dipping Jim finds      himself wanting a dip right away in the
       morning. He gets nervous if he goes     four hours without a dip, usually takes a
       dip just before class, would make a special trip to the store if he ran out of
       snuff , and says he would have strong cravings if he tried to quit.
       Jim has tried to quit , but like most. other high school dippers that have tried
       to quit , he failed. . As Jim put it, " I was going crazy. I couldn t concentrate.
       I was jittery. I couldn t sleep.        JirJl tried to quit because his dad askeahim
       to do so, however the most common reason why a teenage dipper tries to quit
       because he s heard that somehow , or in some way, cancer is connected to dipping.

       Jim has noticed the white wrinkled patches in his mouth and the staining of his
       teeth. He   read about a kid (dipper) who died of cancer. He stated that had he
       heard about the cancer threat before he had started dipping, he probably would
       still have dipped , his reason being that he was so young when he started dipping
       that it probably would not have mattered to    him. Jim is probably correct that,
       at age 11 , the fear of cancer would not have overridden the curiousity or peer
       pressure to try dipping. But Jim is unlike over half of the high school dippers
       interviewed , in that they stated they would not have gotten started dipping had
       they known then what they know now.

       Jim has never smoked cigarettes. Most      of the     dippers
                                                                  interviewed were not
       cigarette smokers and all but two of them believed that it was safer to dip than
       to smoke.

       Jim s last comments were, .. If they gave r.1t: a miracle cure where I could   take it
       and it would make me never want to take a dip, I would take it right now.
 Fred , who is a regular snuff dipper , is an 18 year old senior at a high
 schoo 1 in a small southwestern
 white male. He doesn
                                    city. He is a handsome we ll- groomed young
                         t participate in athletics but is a member of FFA
 Future Farmers of America.

 Fred likes to dress. western , wears boots and -jeans and drives his own
 pickup truck complete with spitton for convenient disposal of -his snuff.
 He is a hard working, self-employed young man.

 He first tried snuff when a young male friend offered him some when he was
 eleven years old in the fifth       grade.
                                          By sixth grade, he had become a
 regular user and has dipped heavi ly for       the last 6 years.
                                                               Fred star.ted
 with Copenhagen , has tried Skoal , but       has settled on
                                                         Copenhagen as his
 preferred  brand.  He buys his snuff at the gas station and has never had
 any difficulty purchasing as a minor.


 Fred says he started dipping snuff , mostly because several of his friends-
 were using it. Currently , his best male friend and most of his other male
 friends dip. His Dad' s brother also  dips.  His father doesn t dip but
. neutral toward Fred'    dipping. His mother and one of his sisters
 disapprove of his    habit. His girlfriend and another sister are neutral.
 He views dipping as     equally acceptable    to smoking and says a number of
 students at hi s   school approve of snuff.

 Fred dips 7 days a week and takes about 15 dips a day, which works out to
 about 10 cans of snuff each week. Normally, he holds each dip in his mouth
 about 45 mi nutes, un ess in schoo 1 - where he averages about 20 mi nutes.
 Normally, he spits in his spittoon or on he ground        but in class
 swallows the  juices.  He wants a dip right away in the morning, and      gets
 nervous if he goes over 4 hours wi thout a dip.

 He dips both alone and with his friends in lots of different      settings:
 home, at work , while studying, in class, at ball games, at parties, when
 relaxing with friends, and even on dates. He says he likes the taste of
 dipping, that it relaxes him and gives him something to do.

 Fred has a pretty high awareness of the health risks of his snuff habit.
 He knows, for example, that it can cause gum and mouth problems, mouth and
 throat cancer , that it'
                        s addictive and stains your teeth. Nevertheless, he
 says snuff is safer than cigarettes and that young people who regularly dip
 run only a moderate risk of physically harming themselves.

 Fred has experienced sore and irritated gums, gum              line recession,
 leukoplakia, skin peeling off      hischeeks and gums and staining      of
                                                                         his
 teeth.   He also reports having had mouth sores and blisters under his
 tongue and all across hi s gums for about 9 months. These problems prompted
 him to visit the school nurse, which , in turn, led to visits to a dentist
 and oral surgeon. The dentist failed to detect his problem source, but the
 oral surgeon urged him to quit     dipping. Fred stopped for 4 days before
 resuming his dipping habit.


 Fred knows,   first- hand , that snuff is addictive and that dipping is a
 strong habit , which     is very difficult to break. He has made twelve
 attempts to stop dipping snuff; unfortunately, all have ended in    failure.
 I was born to chew " Johnny said proudly as he described why he began using
smokeless tobacco. He" took his first pinch of smokeless at age 15 , when he
took a can of Copenhagen from a store. " I was- looking for a bad habit " he
continued.
Now 19 and a high school senior ,                    Johnny has been chewing regular  ly for two
years. He chews               every day,        mostly alone , and uses about four cans of moist
snuff each week. He                         said it is never            difficult to
                                                                             purchase smokeless
especiaJJy because he is an                   older teen and can buy it at the tribal smokeshop.

He recently moved to a                     smaJJ Indian reservation ,        where   his chewing influence
among students has been noticed by . the                      elders.       Chewing among students has
noticeably increased since Johnny and a couple of other chewers moved to the
reservation.
As an athlete, playing both footbaJJ and basketbaJJ , he doesn t chew while
playing sports because the coach is strict. If caught , he would be kicked off
the team. He noted , however , that he had moved from                             basebaJJ country where
his previous coaches had chewed.
He displayed some disdain for kids                       who don t chew ,      describing them as either
honor          or nerds.
           roJJ gir     Is



He said he had seen about 24 television commercials                            for smokeless tobacco in
the past month and describes the                         people shown using       smokeless as " outdoor
dudes. " He believes TV ads have a                       strong effect in     encouraging young people
especiaJJy preteens ,            to try smokeless.

He admits it would be hard to quit chewing, and sometimes even sleeps with a
pinch in his mouth.  He doesn t believe smokeless tobacco is addicting, saying
it does not contain nkotine.    He does admit , however , that chewing can lead
to mouth or lip cancer , but says that the risk depends on how much a chewer
uses and whether he brushes his teeth.
He has no plans to quit.
..




     Richmond is a l6- yecr-old junior who has been a regular snuff
     dipper for the past 3            years.
                                           He is a rather heavy user, going
     through about 6 cans of Skoal a week          he dips an ave age of 6 to
     10 times a day every day of the                  week.
                                                    Rich has spent all of his
      life in a rural        He   area.
                                    is    a member   of his high . school foo tball
      and track teams.
     Like many other young men who use smokeless tobacco, Ri ch firs t
     tried snuff because so many of his peers used and he " just
     wanted to see what it was like.    He admits to naving a
     dependency on snuff, but describes it as being more
     psychological than physical. Often, he says, he does it
      because there s nothing else to do. Rich did try
     unsuccessfully to quit 6 months ago because his girlfriend
     di sapprovcd of the habi t he retur ed to snuff after 3 weeks of
     abstinence, he says, because of lack of willpower. He
     convinced he could qui t for good if he " really had to.

     \':hen asked about use of smokeless tobacco by relatives, Richmond
     stated that his father switched from smoking cigarettes to
     dipping snuff because of his son s influence. Rich is strongly
     anti-smoking, citing his father s improved health since stopping
     smoking as evidence for his argument that dipping is much snfer
     than smoking. He acknowledges that smokeless use can lead to
     such problems as lip cancer and deterioration of the teeth, but
     qualifies this by stating, " The way mE' and my friends look at
     it, we know people who ve rubbed (dipped) all tr.eir lives, and
     some people it affects and some it doesn        But he is quick to
     add, " It' s not something I want to do all my life.
     Rich mentioned that his mOM h d pp.rsuaded him to watch the GO
     Minutes episode on smokeless tobacco, and this seemed to have
     had a strong impact on hiJT. He said, " "fuen I first started
     (using snuff), I' d never heard about lip cancer and all that
       d knoWn before, it may have had some jnfluence (on my deci ion
     to use).     Since the         60 M.; I. utes    epi sode, I   thi nk about it
     lot more.      A lot of my         rlen s       watched thc     show.
     Rich felt that the best way to Educate youth about the peal
     risks of smokeless tobacco use is to " just advprtise it more.
     You see a lot of warnings against smoking but not against
     smokeless. I' ve seen and not iced 8urgeon General warnings for
     cigaret te       it'     s probably not a bad idea to put warnings on
     snuff cans.

     Although Pich himself has experienced only relatively mild
     heal th side-effects from usage such as occasional                      leukoplaki a,
     peeling of mo th tissue and tooth staining, in hLs final
     comments he expressed a good deal of concern over contracting
cancer.    Citing the   60 Minut(-s episode again, he said, " f'1y
friends and I have been worr    ed about getting lip cenccr and
have t2 J ked about\lhether or not there s some way to get checked
for it.   He inqu ired 2. S to wr,ether or not there exi sted some
quick and inexpensivt way to get tested for cancer.


I'espi te his
            commer.ts that some people are simply immun.e from
health problems resulting from use of snuff or chewing tobacco,
Rich is obviC'usly very aH re of and very worr ied about the risk
of cancer.  He is an eXQmple of a young person who could greatly
benefit fron a greater understanding of the 2ctual risks
involvrd.  He and his friends ' concern points up the need for
informutional camp igns and the availability of informed health
professionals to anSWPT questions and check for existing or
developing heal th pToblpms.
                                    , "





 A 17- year old high school senior in a small Southeastern 1Itextile city says,
 of his experience with snuff
    I wish li d never started. Stanley, the son
 of a computer programmer " and a teacher , first tried snuff at the age of 12.

 He has used it regu 1 ar ly for the ast two years.


 The six     to    ten dips he takes daily adds up to             about
                                                               seven cans              of
 Copenhagen per week , and he keeps a dip in his mouth about 30 minutes.

 When and where does he dip snuff? It runs the gamut , for he uses it whi le
 alone and when with his friends; he dips at home, at work, in class,
 parties, and at spectator         sports.
                                  Stanley, a wrestler and football player
 also uses snuff when playing         sports.
                                       Smokeless tobacco is widely used by
 his friends (most of his buddies and teammates dip or chew, as does his
 very best friend). The use of smokeless is                further
                                                         reinforced, since
 several of the school' s coaches also use the products.


  Incidentally, a female physical education instructor and coach at Stanley
  school feels that the use of smokeless by male coaches is the reason for
  laxity in enforcement of the school' s tobacco policy. She says the other
- coaches condone        the
                        use of smokeless by students. Stanley says that
  dipping and chewing are permitted at the campus II smoking block 1I adding
 that   school restrictions        on
                                  dipping and chewing are II somewhat weakly
 enforced.    Like so many young smokeless victims, Stanley started dipping
  due to what he calls II peer pressure. II He was with a pal of the same age
  when he took      his first dip.
                                 His young friend supplied that first dip, and
 perhaps an adequate dose of peer pressure.

 Although his best girl friend and both his parents disapprove of his
 dipping, he continues to dip because he likes               it
                                                       and his friends have
 encouraged        it.
                  In fact,
 approve of the use of
                           he believes
                       smokeless and
                                        that
                                     that " it
                                               most
                                                is
                                                     students
                                                   certainly
                                                              at
                                                             more
                                                                      school
                                                                  acceptable
                                                                             his
  than smoking.


              newspaper art i c 1 es about the potent i a 1 hazards of us i ng snuff
  H av i ng read
  and having seen a thought- provoking expose on television (Ii Sixty Minutes
  Stanley is well aware of the          risk of oral
                                               cancer and other problems.
  has already experienced lellkoplakia, peeling cheeks  and gums, and stained
  teeth.    But he is, so far , unable to quit         dipping.
                                                         He has made thi;2 or
  four   attempts to gi ve it up, but has resumed use each time after no more
  than two weeks.

  So, after dipping snuff regularly for two            years, itl s   clearly a   powerful
  habit he can           subdue.
                           Sadly, Stanley says,           II I wish li d never started
  that' s all.lI
..   ..
     ..




          Jack is a 17-year old senior whose cousin encouraged him to take                his first
          chew of Redman when he was                  13.
                                         He has been chewing dai ly for two years and
          uses three cans of Copenhagen a                   week.
                                                   He carries a cup to        in when  spit
          indoors.   Besides his cousin, both his grandpa              nd uncle chew. ALL of his
          male friends chew     On the other hand , none of his soccer coac             es-nd only
          a few of hi s soccer teammates chew.
          Although he has seen about five TV ads for smokeless during the past month
          he says he pays          more attention to the radio commercials which he            hears
          frequently.
          He continues to chew because, II I                 like the taste.
                                                                     relaxes   It          me.
          friends do it. And it' s something to do. 1I He has never tried to
          described kids who are not likely to chew as " brainy, straight kids and
                                                                                          quit.
          nerds.
          He acknowledges  that dipping or chewing can                 be
                                                            harmful to a person
          health ,citing potential problems such as lip cancer , stomach and throat
          problems if you swallow it , and teeth or gum                 problems.
                                                                      He admits he
          doesn t know the extent to wh i ch young peop le           ri sk harm by regu 1 ar use
                                                                                  and
          argues that it depends on a person s usage pattern and other health habits
          such as how frequently he brushes his teeth or goes to the dentist.


          Jack bel ieves that smokeless is much more safe than cigarettes and that
          users rarely experience gum and mouth problems. He does not know whether
          snuff contains nicotine. He agrees, however , that regular use is addicting
          and may lead to mouth cancer. Although he denies that dipping has been
          harmful to his own health , he admits he personally has experienced white,
          wrinkled patches where he keeps the tobacco.

          He doesn I t bel ieve there is any way to inform students about the health
          risks of smokeless tobacco, saying II I don t know how anyone can stop kids
          from using it. They aren t going to listen anyway. We re told by adults
          that everything is harmful, even water , so why listen when they tell us
          smokeless is bad?1I
. .




      Bill is           looking, to go along with his interests in four sports.
                  athletic
      He was 14 years old when he first tried smokeless tobacco, and he says,
       Now I' m hooked.    He has become more concerned about the health risks
      since he saw a program on 20/20. " Unfortunately, " he said, " I did not see
      it before I started.     He would like to quit but he can t seem to do                      it.
       But I' ve never asked anyone to help me to             stop. li
        ve never had the strong urge to qu      I   it.
                                                  know you
                                                             ve tried to stop, but
                                                           can get cancer now
                                                                              , II he
      added. But , in fact , he wanted to dip snuff while we were tal-ing about
      the effects it had 011 him:

               lt kind of calms me down. It  seems to help me settle down to do
          homework. Isn      t it funny, I feel like having a dip right now. I
          feel nervous. Is      this really confidential?"

      He is not a 11 owed to
                           dip or chew at his schoo 1 .               Smokers have a designated
      area at the school to smoke           in.
                                        He ' comp 1 a i ned
                                                                     II If thesmokers can throw
                                                                     It makes me mad. I       don
      cigarette butts everywhere, why can t we spit?
      unders tand it.

      He says to young peop    le ­
          II
           It is worse than smoking. You should never ever try                   it.   I wi sh


          they had a commercial like they have for little kids:

                        , Slam the door toa       stranger I S   face,

                        Say no to smokeless       tobacco,

                        Be smart,
   ' II
                        Chew gum.

      He would like to talk to someone who has quit, so he could quit.

,'




     Har ley           grew up among          dippers and chewers. His gr andf ather ,               uncle and cousin   all
     used smokeless tobacco.                            Being curious and wanting to act grownup,               he tried
     some dip. He was four years of age at the time. He                                      said he began regular      use
     of snuff at age                five with     his     older         brother buying it for him.

     Before quitting, he was dipping Copenhagen 20 times every day. He used six
     cans of snuff a week. He was dipping alone and with friends. Dipping ' was a
     favorite thing to do                when riding              his    motorcycle.
     Har     ley            thinks television commercials have                   a   strong influence   on teenag rs by
     depicting users as " rough , tough outdoor types.

     Harley, now 16 years old ,                         admitted the         difficulty he had trying to quit    dipping
     after     years of regular
                      I I                                use.
                                      He had the strong cravings caused by the
     nicotine. He had to cut back gradually, chewing sunflower seeds as a substitute
     for dipping. He wanted his second attempt to succeed.

     He stated several  reasons for deciding to                                  quit. His mother disapproved. His
     uncle had gotten throat cancer probably as a                result of tobacco use. He had read
     about the Oklahoma                   athlete who had died from oral cancer. And his sponsors
     who funded his motor cross                        racing didn t think dipping was the image they wanted
     their         riders       to project.

     He quit dipping two months ago and hopes dipping is a thing ' of the past.
      , "                                    , "      , "





 He wore    a Copenh agen   hat and   look   ed    1 i ke he   wou   1 d be more comfort ab 1 e
 idling time away on a street corner than in school. He                    was sixteen and in
 the ninth grade,      a user of smokeless tobacco since he was five.
 started , he recalled , when his cousin took a dip. " I asked him what
 was , and he said , it was. a chew. I said, let me have a taste.


' He says, " I
 don t have
              need
            it. I' it.
 Like so many of today s youths who use smokeless-tobacco, he plays sports.
                         If 11 m playing football I almost get shakey if
                   ll yell at my teammates if they are not doing everything
 just righL"
 On the other hand , he does not smoke since it would affect his wind.
 said I have to be able to run and not have my chest hurt."
 He was using over two cans of snuff a day until he read the article on Sean
 Marsee in Readers Digest.    Now " he " said   m trying to quit , because
 saw that Sean guy s face and how short a time               it took to kill him.
                                                                     It made
 me want to qu it.
 When asked what recommendations he had for young people concerning the use
 of smoke 1 ess tobacco, he responded   I th i nk they shou 1 d out 1 aw it jus
 like they should cigarettes.
! -' -




     -t


          Roy was introduced to smokeless tobacco at the age of eight when a friend
          offered him a pinch of moist snuff. Five years later , at age 13 he began
          dipping regularly. What started as mere curiosity became a habit.  I like
          something harsh in my lip, 1I       he explained.

          Roy, at.       17 years of age , dips every day, consuming as many as sev..n     cans of
          Copenhagen a week. He dips with friends or          alone. II I have some in     a 11 the
          time, 1I he confessed. He        can buy the snuff at any convenience store wi thout
          d iff i cu 1   ty.
          Like many of his peers he is aware of the potent i a 1 health consequences of
          dipping snuff ,but he has bought into the activity for many reasons, . not
          the least of which            is habituation. To him the health risk is
          moderate             despite experiencing stained teeth irritated gums,only
                                                                                  and
          leukoplakia. He considers dipping much more safe than smoking.

          Roy thinks television commercials are designed to appeal to young adults-
          and have only a moderate effect on teenagers to try smokeless tobacco. He
          feels that II jocks       like to dip because they can t smoke when training.

          Roy believes that dipping snuff is in line with the tough cowboy image.
          labeled nondippers as ll mommy       s boys.

          He said he tried to quit dipping twice because of the growing expense and
          the disapproval of his parents and girlfriends. In fact , he stopped one
          time for over a year only to begin again. II I        missed it, ll   he said.
          Roy will continue dipping.

